<html>
<title> - ARTIFICIAL INTELLIGENCE AND COUNTERTERRORISM: POSSIBILITIES AND LIMITATIONS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


    ARTIFICIAL INTELLIGENCE AND COUNTERTERRORISM: POSSIBILITIES AND 
                              LIMITATIONS

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                            INTELLIGENCE AND
                            COUNTERTERRORISM

                                 OF THE

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 25, 2019

                               __________

                           Serial No. 116-28

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                                    

        Available via the World Wide Web: http://www.govinfo.gov

                               __________

               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
38-781 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------



                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Sheila Jackson Lee, Texas            Mike Rogers, Alabama
James R. Langevin, Rhode Island      Peter T. King, New York
Cedric L. Richmond, Louisiana        Michael T. McCaul, Texas
Donald M. Payne, Jr., New Jersey     John Katko, New York
Kathleen M. Rice, New York           John Ratcliffe, Texas
J. Luis Correa, California           Mark Walker, North Carolina
Xochitl Torres Small, New Mexico     Clay Higgins, Louisiana
Max Rose, New York                   Debbie Lesko, Arizona
Lauren Underwood, Illinois           Mark Green, Tennessee
Elissa Slotkin, Michigan             Van Taylor, Texas
Emanuel Cleaver, Missouri            John Joyce, Pennsylvania
Al Green, Texas                      Dan Crenshaw, Texas
Yvette D. Clarke, New York           Michael Guest, Mississippi
Dina Titus, Nevada
Bonnie Watson Coleman, New Jersey
Nanette Diaz Barragan, California
Val Butler Demings, Florida
                       Hope Goins, Staff Director
                 Chris Vieson, Minority Staff Director
                                 
                               ------                                

           SUBCOMMITTEE ON INTELLIGENCE AND COUNTERTERRORISM

                      Max Rose, New York, Chairman
Sheila Jackson Lee, Texas            Mark Walker, North Carolina, 
James R. Langevin, Rhode Island          Ranking Member
Elissa Slotkin, Michigan             Peter T. King, New York
Bennie G. Thompson, Mississippi (ex  Mark Green, Tennessee
    officio)                         Mike Rogers, Alabama (ex officio)
                  Vacancy, Subcommittee Staff Director
           Mandy Bowers, Minority Subcommittee Staff Director
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Max Rose, a Representative in Congress From the 
  State of New York, and Chairman, Subcommittee on Intelligence 
  and Counterterrorism:
  Oral Statement.................................................     1
  Prepared Statement.............................................     2
The Honorable Mark Walker, a Representative in Congress From the 
  State of North Carolina, and Ranking Member, Subcommittee on 
  Intelligence and Counterterrorism:
  Oral Statement.................................................     3
  Prepared Statement.............................................     4
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Prepared Statement.............................................     5

                               Witnesses

Mr. Alex Stamos, Adjunct Professor, Freeman Spogli Institute, 
  Program Director, Stanford Internet Observatory, Encina Hall:
  Oral Statement.................................................     6
  Prepared Statement.............................................     8
Mr. Ben Buchanan, Assistant Teaching Professor, Georgetown 
  University, Senior Faculty Fellow, Center for Security and 
  Emerging Technology, Mortara Center:
  Oral Statement.................................................    16
  Prepared Statement.............................................    18
Mr. Julian Sanchez, Senior Fellow, Cato Institute:
  Oral Statement.................................................    20
  Prepared Statement.............................................    22

 
    ARTIFICIAL INTELLIGENCE AND COUNTERTERRORISM: POSSIBILITIES AND 
                              LIMITATIONS

                              ----------                              


                         Tuesday, June 25, 2019

             U.S. House of Representatives,
                    Committee on Homeland Security,
                              Subcommittee on Intelligence 
                                      and Counterterrorism,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
room 310, Cannon House Office Building, Hon. Max Rose (Chairman 
of the subcommittee) presiding.
    Present: Representatives Rose, Jackson Lee, Langevin, 
Thompson (ex officio), Walker, and Green.
    Mr. Rose. The Subcommittee on Intelligence and 
Counterterrorism will come to order.
    Good morning, everyone. Thank you so much for being here. 
Today, the Subcommittee on Intelligence and Counterterrorism is 
meeting to examine the role of artificial intelligence, or AI, 
in addressing counterterrorism content on social media 
platforms.
    We all know that AI can perform a myriad of tasks, complex 
and otherwise. It is everywhere in the news. The issue, though, 
that we are looking to address today, though, the question that 
we are looking to address today is very simple, and that is, 
what can AI do and what can AI not do as it pertains to 
counterterrorist screening? Because we are hearing the same 
thing from social media companies, and that is, AI's got this. 
It is only going to get better.
    We take down 99 percent of content, hundreds of thousands, 
millions of pieces of content due to our superior AI platforms. 
But nonetheless, though, we have seen egregious problems with 
counterterrorist screening on social media platforms.
    On March 15, a white supremacist extremist opened up fire 
at two mosques in Christchurch, New Zealand, killing 51 people 
and wounding 49 more. Shockingly, the terrorist was able to 
live stream the attack on Facebook because Facebook's AI did 
not deem the footage gruesome enough. They had never seen it 
before.
    The video was then uploaded to Facebook by other users, and 
300,000 of these attempts made it through, proving that their 
technology is not yet up to the task. In fact, instead of 
preventing terrorist content from spreading, the Associated 
Press recently reported that Facebook's AI was making videos of 
and promoting the terrorist content it should have been 
removing.
    I hope our witnesses today will help us better understand 
the current state of AI and its limitations, capabilities, and 
future promise, especially as it relates to countering on-line 
terrorist content.
    We are receiving wake-up calls left and right about this 
problem. Two years ago, the big tech companies, led by 
Facebook, Twitter, Google, Microsoft, got together and they 
formed the Global Internet Forum to Counterterrorism, or the 
GIFCT, to share best practices and certain best technologies to 
combat the spread of on-line terrorist content.
    While the GIFCT touts impressive numbers, recent reporting 
and persistent lack of transparency from the tech companies has 
raised fundamental questions about the effectiveness of AI and 
other technologies at identifying terror content. Let's be--in 
the plainest of language, the GIFCT, from everything I have 
seen to date, is a joke.
    There is no full-time employee. There is no brick and 
mortar. They call it an association, but there are much smaller 
associations that have dedicated far more resources, and this 
is a classic collective action problem.
    So we have been looking at this, myself and Ranking Member 
Walker, as well as the rest of the committee, we have been 
looking at this problem for months now, and we have been 
approached by the social media companies with this libertarian, 
technocratic elitism that is highly, highly disturbing, and it 
centers around them claiming that AI can accomplish everything. 
And as a consequence, when we ask them, how many people have 
you hired, what kind of resources have you dedicated to this 
problem, they will not give us a straight answer because, 
again, they refer to AI. They say you can hire 50,000 people, 
but why do that when we have AI.
    So today, we want to get to the root of whether that is a 
legitimate response or not or, to the contrary, whether tech 
firms and social media platforms are putting us all at risk via 
their wanton disregard for their National security obligations.
    There has been a frustrating lack of transparency amongst 
these social media companies. They have to do better, and we as 
a Congress must do more to hold them accountable. As I said, 
our National security is at stake.
    I thank the witnesses and Members for being here, and I 
look forward to making progress on this important issue.
    [The statement of Chairman Rose follows:]
                     Statement of Chairman Max Rose
                             June 25, 2019
    AI can perform a myriad of complex tasks that formerly required a 
human being. Social media companies use AI to help identify and remove 
terrorist content and materials that violate their terms of service, so 
far with mixed results at best. But we've seen in gruesome detail the 
failures which serve as a critical reminder that AI is not up to the 
task. On March 15, a white supremacist extremist opened fire at 2 
mosques in Christchurch, New Zealand, killing 51 people and wounding 49 
more. Shockingly, the terrorist was able to live-stream the attack on 
Facebook because its Artificial Intelligence, or AI, did not deem the 
footage gruesome enough. The video was then uploaded to Facebook by 
other users and 300,000 of these attempts made it through--proving that 
their technology is not yet up to the task.
    In fact, instead of preventing terrorist content from spreading, 
the Associated Press recently reported that Facebook's AI was making 
videos of and promoting the terrorist content it should have been 
removing. I hope our witnesses will help us better understand the 
current state of AI and its limitations, capabilities, and future 
promise, especially as it relates to countering on-line terrorist 
content. This incident is a wake-up that not enough is being done 
either through technology or human moderators to protect us from 
terrorist threats on social media--including terrorists using these 
platforms to recruit, plan, and broadcast their attacks. Two years ago, 
the big tech companies--led by Facebook, Twitter, Google, and 
Microsoft--got together to form the Global Internet Forum to Counter 
Terrorism, or GIFCT, to share best practices and certain basic 
technologies to combat the spread of on-line terrorist content.
    While the GIFCT touts impressive numbers in removing terrorist 
content automatically, recent reporting and persistent lack of 
transparency from the tech companies have raised fundamental questions 
about the effectiveness of AI and other technologies to at identifying 
terror content. I come to this hearing with an open mind and a 
willingness to work with social media companies to do what is right, 
but I have been disappointed so far. There has been a frustrating lack 
of transparency from the social media companies about their efforts to 
address terror content on their platforms.
    Weeks ago, I wrote asking about their personnel and resources 
committed to this important effort, and I have yet to receive 
satisfactory answers. They must do better. We, as Congress, must do 
more to hold them accountable. Our National security is at stake.

    Mr. Rose. I now recognize the Ranking Member of the 
subcommittee, Mr. Walker, for an opening statement.
    Mr. Walker. I want to thank Chairman Rose for holding this 
hearing today. I look forward to hearing from our distinguished 
panel. I believe we have got Georgetown and Stanford, at least, 
represented today. Certainly want to talk about the limitations 
in utilizing artificial intelligence to monitor on-line 
extremist content.
    The ingenuity and superiority of the United States' private 
sector continues to drive the development of new technologies, 
products, and services that really revolutionize the world. The 
development of AI is another example, and we have only seen the 
beginning of what this technology can do.
    AI has the potential to address a variety of major global 
issues, and research and developmental is happening across all 
sectors. U.S. educational institutions, including those in my 
home State of North Carolina, are leading cutting-edge 
researches into health care, pharmaceuticals, transportation, 
data science, and many more fields.
    Today, we are primarily reviewing how the technology is 
used by social media companies to operate their platforms and 
identify the exact content that needs to be removed. It is 
clear that technology is not a silver bullet for identifying 
and removing extremist content, given the volume of content 
uploaded every second on social media platforms. AI technology 
in its current form is limited and cannot currently evaluate 
context when reviewing content.
    For example, there have been a number of notable examples, 
one just mentioned in the past few years, where AI has flagged 
portions of even, get this, the Declaration of Independence and 
removed historical images from media reports. We must also be 
mindful that algorithms and content moderation policies are 
ultimately subjective as they are developed and operated by 
humans who possess sometimes their own bias.
    As legislators, we must proceed with caution on the 
appropriate role for Congress in this situation, understanding 
the potential to stymie free speech. We must also recognize 
that social media companies themselves have a First Amendment 
right to host, to develop, and modify their terms of service 
and content moderation policies to foster an open and free 
space for expression. We have come to a crossroads in the 
debate on what content should be prohibited from social media 
platforms and the appropriate mechanisms to identify and remove 
such content.
    Today's hearing will help us to further our understanding 
of the current capabilities of AI technology and receive 
recommendations on what more the social media companies could 
be doing regarding the application of AI relating to the 
content moderation.
    So at a minimum, we need to discuss the continually-
changing terms of service implemented by many of the companies 
and the need for greater transparency in how they are making 
content removal decisions, not only to the individual users, 
but also to the community as a whole and at large.
    I look forward to the testimony, and I want to thank the 
witnesses for appearing here today.
    I yield back the balance of my time, Mr. Chairman.
    [The statement of Ranking Member Walker follows:]
                Statement of Ranking Member Mark Walker
                             June 25, 2019
    I want to thank Chairman Rose for holding this hearing today. I 
look forward to hearing from our distinguished panel on the 
capabilities and limitations in utilizing artificial intelligence, or 
AI, to monitor on-line extremist content.
    The ingenuity and superiority of the U.S. private sector continues 
to drive the development of new technologies, products, and services 
that have revolutionized the world. The development of AI is another 
example and we have only seen the beginning of what this technology can 
do.
    AI has the potential to address a variety of major global issues, 
and research and development is happening across all sectors. U.S. 
educational institutions, including those in my home State of North 
Carolina, are leading cutting-edge research into health care, 
pharmaceuticals, transportation, data science, and many more fields.
    Today, we are primarily reviewing how the technology is used by 
social media companies to operate their platforms and identify content 
that may need to be removed.
    It is clear that technology is not a silver bullet for identifying 
and removing extremist content, given the volume of content uploaded 
every second on social media platforms.
    AI technology, in its current form, is limited and cannot currently 
evaluate context when reviewing content. For example, there have been a 
number of notable examples in the past few years where AI has flagged 
portions of the Declaration of Independence and removed historical 
images from media reports. We must also be mindful that algorithms and 
content moderation policies are ultimately subjective, as they are 
developed and operated by humans who possess their own bias.
    As legislators, we must proceed with caution on the appropriate 
role for Congress in this situation, understanding the potential to 
stymie free speech.
    We also must recognize that the social media companies themselves 
have a First Amendment right to host, develop, and modify their terms 
of service and content moderation policies to foster an open and free 
space for expression.
    We have come to a crossroads in the debate on what content should 
be prohibited from social media platforms and the appropriate 
mechanisms to identify and remove such content. Today's hearing will 
help us to further our understanding of the current capabilities of AI 
technology and receive recommendations on what more the social media 
companies could be doing regarding the application of AI relating to 
content moderation.
    At a minimum, we need to discuss the continually-changing terms of 
service implemented by many of the companies and the need for greater 
transparency in how they are making content removal decisions, not only 
to the individual users, but also to the community as a whole.
    I look forward to the testimony and I want to thank the witnesses 
for appearing here today. I yield back the balance of my time.

    Mr. Rose. Thank you, Ranking Member.
    Other Members of the committee are reminded that under the 
committee rules opening statements may be submitted for the 
record.
    [The statement of Chairman Thompson follows:]
                Statement of Chairman Bennie G. Thompson
                             June 25, 2019
    In March, a white supremacist terrorist in Christchurch, New 
Zealand, exploited social media platforms to live-stream violent images 
across the world--millions of times over. Technology such as Artificial 
Intelligence is one tool social media companies use to help identify, 
monitor, and remove such terrorist content. We are witnessing a new 
technological age with Artificial Intelligence or ``AI.'' Computer 
systems are increasingly able to perform tasks that previously required 
human intelligence.
    Over time, this capability will only be refined and as the 
technology improves. We are here today to understand the technological 
possibilities and current limitations of AI when it comes to countering 
terrorism on-line. Congress has a responsibility not only to track the 
progression of these emerging technological breakthroughs, but to 
understand how they affect our security. The individuals here today 
represent some of the brightest minds in the AI field. I hope to hear 
from our witnesses about whether the technology can accurately flag 
terror content or other material that violates terms of service without 
unduly impeding the flow of legitimate content on-line.
    I also hope to hear about where the technology is still lacking, 
and whether the social media companies are working to improve its 
effectiveness on their platforms. Today's hearing lays an important 
foundation for our full committee hearing tomorrow, where we will 
engage social media companies about the challenges they face in 
addressing terror content and misinformation on their platforms.

    Mr. Rose. I welcome our panel of witnesses. Our first 
witness is Mr. Alex Stamos, adjunct professor at the Freeman 
Spogli Institute. Prior to this position, Mr. Stamos served as 
the chief security officer at Facebook. In this role, he led a 
team of engineers, researchers, investigators, and analysts 
charged with understanding and mitigating information security 
risk to the company and safety risk to the 2.5 billion people 
on Facebook, Instagram, and WhatsApp.
    Next, we are joined by Mr. Ben Buchanan, an assistant 
teaching professor at Georgetown University and senior faculty 
fellow with the Center for Security and Emerging Technology. 
Previously, he has written journal articles and peer-reviewed 
papers on artificial intelligence, attributing cyber attacks, 
deterrence in cyber operations, cryptography, elections, 
cybersecurity, and the spread of malicious code between nations 
and non-state actors.
    Finally, we have Mr. Julian Sanchez, a senior fellow with 
the Cato Institute, where he studies issues at the intersection 
of technology, privacy, and civil liberties, with a particular 
focus on National security and intelligence surveillance. 
Previously, he served as the Washington editor for the 
technology news site Ars Technica, where he covered 
surveillance, intellectual property, and telecom policy.
    Without objection, the witnesses' full statements will be 
inserted into the record.
    I now ask each witness to summarize his or her statement 
for 5 minutes, beginning with Mr. Stamos.

  STATEMENT OF ALEX STAMOS, ADJUNCT PROFESSOR, FREEMAN SPOGLI 
  INSTITUTE, PROGRAM DIRECTOR, STANFORD INTERNET OBSERVATORY, 
                          ENCINA HALL

    Mr. Stamos. Good morning, Chairman Rose, Ranking Member 
Walker. Thank you very much for this opportunity to discuss the 
potential uses and limitations of artificial intelligence and 
on-line counterterrorism enforcement. My name is Alex Stamos. I 
am currently the director of Stanford Internet Observatory, 
which is a program of the Stanford University Cyber Policy 
Center. Our group is performing cross-disciplinary research 
into the misuse of the internet, with a goal of providing 
actionable solutions for tech companies and governments.
    I am also a William J. Perry fellow at the Center for 
International Security and Cooperation, a visiting scholar at 
the Hoover Institution, a member of the NATO Cybersecurity 
Center, and a member of the Annan Commission on Elections and 
Democracy.
    As you said, before joining Stanford, I was the chief 
security officer at Facebook from June 2015 to August 2018. 
During that time, I witnessed the company's battle against on-
line terrorism, built and supervised a counterterrorism 
investigations unit, and oversaw the company's research into 
Russian attacks against Democratic elections in the United 
States. Previously, I was the chief information security 
officer at Yahoo and the co-founder of iSEC Partners, which is 
a technical security consultancy.
    I am honored to be here today, and I hope that my 
experience will help clarify some of the misunderstandings, 
confusion, and hype about the potential of artificial 
intelligence that is currently circulating in media reports and 
policy discussions, particularly as it relates to the issue of 
counterterrorism and on-line safety.
    I have submitted written testimony that goes into these 
issues in much greater detail than I can cover in 5 minutes, 
and I thank you for submitting that into the record.
    As someone who has seen some of the world's best machine 
learning experts try to apply these techniques to real-world 
problems, I am convinced that both the promise and the peril 
are often exaggerated, making it difficult to have an honest 
and accurate discussion about the policy implications. The 
capabilities of these techniques are overstated by tech 
executives looking for easy answers to difficult problems, 
start-up founders who need venture capital, and media outlets 
who lack the adequate technical expertise to properly kick the 
tires on wild claims.
    If we want to accurately assess the impact of artificial 
intelligence and the policy regime that should accompany it, we 
need to be disciplined in defining both its challenges and its 
capability. Today, I will use the more appropriate term 
``machine learning'' as much as possible instead of artificial 
intelligence, because as we are going to discuss, there is a 
lot more that is artificial than intelligent about even the 
state-of-the-art today.
    The world's best machine learning resembles a crowd of 
millions of preschoolers. There are certainly problems for 
which having a humongous group of children could be taught to 
solve. Imagine having to take a mountain of Skittles and sort 
them into five mountains based upon color. That is something 
that millions of preschoolers could help you with, but adding 
more preschoolers to that group would speed up the task but 
would not allow them to do more complicated tasks.
    No number of preschoolers could get together to build the 
Taj Mahal or explain to you the plot of Ulysses. Similarly, 
modern machine learning can be incredibly powerful for 
accomplishing routine tasks at amazing speed and scale, but 
these technologies are primitive and very fragile. Decision 
making based upon societal values and cultural context is 
completely beyond current capabilities.
    One important thing to understand about modern machine 
learning is that most of the practical techniques in use today 
can't be told what they are supposed to look for; they have to 
be shown. Most of the algorithms relevant to our discussion 
today are known as classifiers.
    Classifiers are systems that sort digital information into 
various categories. A classifier is generally trained by 
feeding the data that has already been labeled by humans, 
preferably large data sets that represent the diversity of all 
potential input. To use our skills example, to train a machine 
learning algorithm to sort our mountain of candy, you can't 
tell it to sort out something green. You have to feed it 
hundreds of examples of Skittles labeled with the correct 
colors.
    The quality of this training set is key. If you fail to 
include examples of a slightly different color, such as sour 
apple, a human being would recognize that as green, but a 
machine learning algorithm wouldn't.
    Machine learning excels at identifying subtle patterns in 
old data and applying it to new data. It fails when those 
patterns are not completely relevant to the new situation, and 
it cannot consider any other context than within which it has 
been trained.
    Despite these weaknesses, I do believe there are still many 
potential uses of machine learning to keep people safe on-line. 
In my written testimony, I specifically discuss the example of 
the terrible mosque shooting in Christchurch as an example 
where several improvements could have been made in response by 
tech platforms. As I wrote in detail, the existence of 
potential solutions are less of a problem in some cases than 
the existence of social media sites that intentionally aim to 
host extremist content. This is sometimes less a question of 
the existence of the tools than the willingness to use them.
    There are 7 additional steps I recommended in my written 
testimony that I believe the social platform should undertake 
to address critical safety issues. The first is for them to 
embrace transparent and proportional responses to content 
violations. The second is to make moderated content available 
for academic study. The third is to establish better 
coordinating bodies for multiple different kinds of abuse. The 
fourth was for the responsible platforms to reduce the movement 
of users to the sites that are intentionally hosting 
radicalized content. The fifth is to establish new and separate 
standards for manipulating in synthetic media. The sixth is to 
create robust perceptual fingerprinting algorithms that would 
allow for better and faster sharing between the companies. The 
seventh is to work on client-side machine learning for a number 
of different safety purposes.
    There are many difficult decisions our country has to make 
when balancing individual privacy, speech rights, and 
collective safety. New technologies such as end-to-end 
encryption are creating a whole new set of balances between 
legitimate equities. We will actually be convening a workshop 
on this at Stanford in September in which we will bring 
together civil society, law enforcement, tech companies, and 
academics to discuss a new way forward.
    Thank you very much for the opportunity to speak today. I 
am looking forward to your questions.
    [The prepared statement of Mr. Stamos follows:]
                 Prepared Statement of Alexander Stamos
                             June 25, 2019
                            i. introduction
    Chairman Rose, Ranking Member Walker, and committee Members: Thank 
you for this opportunity to discuss the potential uses and limitations 
of artificial intelligence in on-line counterterrorism enforcement. My 
name is Alex Stamos. I am currently the director of the Stanford 
Internet Observatory, a program of the Stanford University Cyber Policy 
Center. Our group is performing cross-disciplinary research into misuse 
of the internet with the goal of providing actionable solutions for 
tech companies and governments. I am also the William J. Perry Fellow 
at the Center for International Security and Cooperation, a visiting 
scholar at the Hoover Institution, a member of the NATO Cybersecurity 
Center of Excellence advisory council, and a member of the Annan 
Commission on Elections and Democracy. Before joining Stanford, I was 
the chief security officer at Facebook from June 2015 until August 
2018. During that time, I witnessed the company's battle against on-
line terrorism, built and supervised a counter-terrorism investigations 
unit, and oversaw the company's research into Russian attacks against 
democratic elections in the United States. Previously, I was the chief 
information security officer at Yahoo and the co-founder of iSEC 
Partners, a technical cybersecurity consultancy.
    I am honored to be here today and hope that my experience will help 
clarify some of the misunderstandings, confusion, and hype about the 
potential of artificial intelligence that is currently circulating 
media reports and policy discussions, particularly as it relates to the 
issue of counterterrorism and on-line safety.
    As someone who has seen some of the world's best machine learning 
experts try to apply these techniques to real-world problems, I'm 
convinced that both the promise and the peril are often exaggerated, 
making it difficult to have an honest and accurate discussion about the 
policy implications. The capabilities of these techniques are 
overstated by tech executives looking for easy answers to difficult 
problems, start-up founders who need venture capital investments, and 
media outlets lacking adequate technical expertise to properly kick the 
tires on wild claims. If we want to accurately assess the impact of 
artificial intelligence--and the policy regime that should accompany 
it--we need to be disciplined in defining both its challenges and its 
capabilities. Today, I will use the more appropriate term ``machine 
learning'' as much as possible instead of artificial intelligence 
because, as we will discuss, there is much more that is artificial than 
intelligent even with the current state-of-the-art.
           ii. the power and limitations of machine learning
    The world's best machine learning resembles a crowd of millions of 
preschoolers. There are certainly problems which a humongous group of 
children could be taught to solve, such as sorting a mountain of 
Skittles into 5 smaller mountains based on color. Adding more students 
to help with tasks like this can improve the speed of their work but 
won't allow them to perform more complicated individual tasks. No 
number of small children could work together to build the Taj Mahal or 
explain the plot of Ulysses. Similarly, modern machine learning can be 
incredibly powerful for accomplishing routine tasks at amazing scale 
and speed. However, these technologies are also primitive and often 
very fragile, in that any deviation from foreseen conditions, including 
evaluating the impact of individual decisions on the system as a whole, 
stymie today's best machine learning. Decision making based on societal 
values and cultural context is completely beyond its capabilities. We 
still rely on humans for this cognitive ability.
    One important thing to understand about modern machine learning is 
that most of the practical techniques in use today cannot be told what 
they are supposed to do; they must be shown. Many of the algorithms 
relevant to our discussion today are known as ``classifiers.'' These 
are systems that sort digital information into various categories. A 
classifier is generally trained by feeding it data that has already 
been labeled by humans, preferably large datasets that represent the 
diversity of potential inputs. To use our Skittles example, to train a 
machine learning algorithm to sort our mountain of candy we would start 
by giving it hundreds of examples of Skittles labeled with the correct 
colors. The quality of this training set is key; failing to include 
examples of slightly different sour apple pieces in the set, which 
humans still perceive as ``green'', would mean the system would be 
unprepared for something like a collection of Crazy Sours,\1\ not to 
mention future colors that don't yet exist. Machine learning excels at 
identifying subtle patterns in old data and applying it to new data. It 
fails when those patterns are not completely relevant to a new 
situation and it cannot consider any other context other than in which 
it has been trained.
---------------------------------------------------------------------------
    \1\ I have perhaps stretched this example too thin, but the 
unexpected diversity of Skittles colors makes for an interesting 
example of incomplete or biased training of a machine learning 
classifier. https://en.wikipedia.org/wiki/List_of_Skittles_products.
---------------------------------------------------------------------------
    In the counterterrorism and more general content moderation 
context, humans and machines at large tech platforms already work 
together to understand and make millions of moderation decisions each 
day. The scale of this work is difficult to fathom. According to 
Facebook's most recent enforcement report,\2\ over 4 billion 
enforcement actions were taken in the first quarter of this year. This 
is roughly 500 enforcements per second, 24 hours a day. This only 
reflects the number of decisions where Facebook decided to act; the 
overall number of decisions considered, including those where no action 
was taken, is much higher.
---------------------------------------------------------------------------
    \2\ https://newsroom.fb.com/news/2019/05/enforcing-our-community-
standards-3/.
---------------------------------------------------------------------------
    I will point out two interesting conclusions to draw from this 
data. First, the design of the charts obfuscates the fact that some 
types of enforcement are around 1,000 times more common than others. 
For example, Facebook reports taking down approximately 1.76 billion 
pieces of spam and 4 million pieces of hate speech in 1Q2019. This 
means that hate speech is 0.2 percent the volume of spam.
    Second, there is a significant difference in the volume of actions 
taken proactively versus after a user report based on the category of 
violation. Only 14.1 percent of ``Bullying and Harassment'' actions 
were proactive, compared to 99.3 percent for ``Terrorist Propaganda.''
figure 1.--summary data from facebook's community standards enforcement 
                   report, published in may 2019 \3\
---------------------------------------------------------------------------
    \3\ Hi-resolution chart available here: https://
fbnewsroomus.files.wordpress.com/2019/05/cser-data-snapshot-052219-
final-hires.png.

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    These disparities reflect the strengths and weaknesses of 
Facebook's current machine learning systems, but the lessons apply to 
other uses. Machine learning is much more effective in situations where 
there are massive sets of both good and bad content available to train 
classifier models, such as with spam. It is also effective in stopping 
content for which there are known signatures and general consensus, 
such as child sexual abuse material \4\ (CSAM). It is not good at 
making decisions when challenging ideas like satire and context come 
into play.\5\ Our political discourse is rife with these modes of 
speech. These weaknesses have led some groups to caution against too 
aggressive use of machine learning in content moderation regimes.\6\
---------------------------------------------------------------------------
    \4\ This is the preferred term of art for ``child pornography'' 
among child safety specialists.
    \5\ Here is a crude but informative example of a content moderation 
decision (perhaps automated) that was not aware of sarcasm: https://
twitter.com/thetweetofgod/status/1138461712871436288?s=21.
    \6\ https://cdt.org/files/2017/11/Mixed-Messages-Paper.pdf.
---------------------------------------------------------------------------
              iii. applying machine learning to terrorism
    The March 2019 terrorist attack against the Al Noor Mosque in 
Christchurch, New Zealand, is a recent example of violence that was 
undoubtedly influenced, and likely even inspired, by the perpetrator's 
on-line interactions. The attacker's manifesto and video can only be 
fully understood in the context of on-line video game, meme, and white 
supremacist subcultures. Many words have been spent assigning blame for 
this attack to social media, but the conversation has created more heat 
than light for platforms and policy makers due to the lack of 
specificity in how this attacker and others leveraged the internet to 
fulfill their ultimate goal of spreading hate and terror.
    While at Facebook, I worked with Brian Fishman, a Counterterrorism 
Research Fellow with the International Security Program at New America 
and a Fellow with the Combating Terrorism Center at West Point. He has 
spent his career studying terrorists and their on-line activities. He 
recently published an analysis in the Texas National Security Review 
outlining 7 top-level functions \7\ that the internet can serve for 
terrorism.\8\
---------------------------------------------------------------------------
    \7\ The functions Fishman names are: Content Hosting, Audience 
Development, Brand Control, Secure Communication, Community 
Maintenance, Financing and Information Collection, and Curation.
    \8\ Fishman, B. (2019, May 24). Crossroads: Counterterrorism and 
the Internet. Retrieved from https://tnsr.org/2019/02/crossroads-
counter-terrorism-and-the-internet.
---------------------------------------------------------------------------
    Several of these functions, such as ``Financing,'' are mostly 
relevant to organized groups such as the Islamic State. However, it is 
important for today's discussion to understand how social media served 
a few of these functions for the Christchurch shooter and his allies as 
well as how machine learning can realistically be applied to each.
    Please note that I am extrapolating based on publicly-available 
information on the Christchurch attacker's on-line activities. The lack 
of data to inform detailed public discussion of the radicalization path 
leading to recent terrorist attacks limits the ability for academics, 
product managers, engineers, and policy makers alike to formulate 
effective technical responses.
Audience Development
    While this term initially seems more relevant to an organized 
terrorist group with formalized recruitment strategies, the white 
supremacist terrorism context of the Christchurch attack demonstrates 
how the internet also provides key capabilities for less structured 
hate groups to attract new adherents to their cause. The early stages 
of radicalization do not require exposure to content that calls 
explicitly for violence. Content that simplifies legitimate grievances 
and assigns blame to specific categories of people can create the 
conditions necessary for self-radicalization. As a National Institute 
of Justice survey of radicalization research put it, `` . . . frame 
crystallization (i.e., identifying and agreeing on who is to blame for 
a situation and what needs to be done to address it) is a facilitator 
of terrorism.''\9\ Content of this type is often found on large social 
media sites and often does not violate those sites' policies unless 
explicitly calling for dehumanization or violence.
---------------------------------------------------------------------------
    \9\ Smith, A. (2018, June). How Radicalization to Terrorism Occurs 
in the United States: What Research Sponsored by the National Institute 
of Justice Tells Us. Retrieved from: https://www.ncjrs.gov/pdffiles1/
nij/250171.pdf.
---------------------------------------------------------------------------
    Based on my experience, the best use of machine learning to 
interrupt this step is perhaps in blunting the damage caused by other 
machine learning algorithms, namely recommendation engines. The role of 
recommendation engines varies widely between social networks, but in 
many cases, they can be the primary determinant of what content a user 
consumes. Much has been written on the danger of such systems, although 
data is scarce and peer-reviewed academic studies remain rare. 
Nevertheless, it has been shown that recommendation engines can be 
influenced to push radicalizing content to large audiences. The ML used 
by recommendation engines can be updated to identify such abuses and 
limit the audience of non-violating, yet radical content.
Community Maintenance
    At this point, there is no evidence that the murderous actions of 
the Christchurch shooting involved direct participation from anyone but 
the suspect in custody. However, the propaganda campaign that followed 
the shooting, conducted while the suspect was already in custody, 
included thousands of individuals with only the flimsiest of on-line 
ties to the shooter himself.
    This collective action was made possible by the existence of 
radical, anonymous on-line communities in which racist, anti-Semitic, 
anti-immigrant, misogynist, and white supremacist thought is not only 
tolerated but affirmed and normalized. In the case of the Christchurch 
shooter, the community of choice was 8chan, a message board explicitly 
created as a response to hate speech restrictions on other sites. It is 
currently owned and operated by an American living in the Philippines 
\10\ and hosted by two U.S. technology providers headquartered in San 
Francisco.\11\
---------------------------------------------------------------------------
    \10\ Jim Watkins, as discussed here: https://splinternews.com/meet-
the-man-keeping-8chan-the-worlds-most-vile-websit-1793856249.
    \11\ NT Technology (https://nttec.com) and Cloudflare (https://
www.cloudflare.com) are the major hosting providers for 8chan.
---------------------------------------------------------------------------
    The Christchurch shooter posted links to his livestream and 
multiple copies of his manifesto on 8chan just minutes before beginning 
his attack. The 8chan thread lasted for hours afterward, filled with 
supportive comments from other members, including discussion of how to 
spread the message of the shooter. Once the original thread was taken 
down, dozens more were created with links to the shooting video and 
advice on how to defeat the site's content filters. Today, it is still 
easy to find entire discussion threads on 8chan dedicated to 
celebrating the attacker and discussions of ``continuing his work''.
    There is some potential application of machine learning techniques 
to address this issue. To the extent that these communities operate in 
private spaces hosted on large platforms, machine learning can be used 
to detect and shut down these groups at scale. There are difficult 
privacy issues to balance here, as any such activity will require 
humans to enter spaces that might be considered private by the 
participants. Detailed investigations should be based upon a strong 
internal predicate, such as a high-confidence classification by machine 
learning. The technical challenges, however, are minimal.
    A much more pressing issue than the existence of machine learning 
techniques is the willingness of the worst actors to deploy them. I am 
often asked why the major tech companies were more successful in 
eliminating Islamic State content from their platforms versus white 
supremacists. This is a complicated issue, with multiple factors 
including the tendency of ISIS members to self-identify, quite visibly 
and with prominent iconography that machine learning can easily detect, 
as well as the success of Western law enforcement in infiltrating ISIS 
support channels and arresting adherents before their planned attacks. 
A major factor, however, was that very few organizations were willing 
to intentionally host forums that could serve the need for ``community 
maintenance'' for international terrorist organizations. This is a 
significant departure from the multiple options available to white 
supremacists, as sites like 8chan happily cultivate them as cherished 
users.

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

Content Hosting
    There were two phases to the Christchurch shooter's content 
strategy. The first phase was to get the content in the hands of 
supporters. His manifesto was pre-generated, relatively small and easy 
to host. Getting a video into the hands of supporters was inherently 
more difficult because it needed to be streamed in real-time, as the 
shooter could not be confident of having time after the attack to 
upload. The shooter chose to use Facebook Live to stream his attack, 
but his supporters on 8chan recognized that this would not be a 
sustainable hosting location for the content and made their own copies 
before Facebook removed it.
    The second phase was a coordinated campaign to defeat human and 
machine learning moderation, executed by the external supporters who 
modified and re-uploaded the video and manifesto millions of times.\12\
---------------------------------------------------------------------------
    \12\ Facebook estimated 1.5M re-upload attempts in the first 24 
hours. No data is available for YouTube or other large platforms. 
https://www.washingtonpost.com/technology/2019/03/21/facebook-
reexamine-how-recently-live-videos-are-flagged-after-christchurch-
shooting/?utm_term=.c745ad62d020.
---------------------------------------------------------------------------
    There is a vast difference in the capability of current machine 
learning techniques to address these two problems. With current 
techniques, training a system to detect content like the shooter's 
manifesto or video with no human intervention is extremely difficult. I 
do not have direct knowledge of why Facebook did not catch the video in 
real time, but it is worth noting that machine learning systems need to 
be trained on examples of good and bad content in order to work. The 
Christchurch video was unlike malicious videos Facebook's systems had 
seen before. It is much less bloody than ISIS beheading videos, and it 
is very different than the kind of suicide videos Facebook has dealt 
with in the past. The first-person perspective is reminiscent of a 
video game, and the soundtrack is punctured by gunshots, but not in a 
way easily distinguishable from movies or game footage. This was the 
first example of this kind of violent video on Facebook, and while an 
adult human could very quickly recognize the grave context, without a 
large corpus of similar training videos, it is unlikely that machine 
learning would have done so alone.
    Addressing the second problem--the mass uploads of slightly varied 
videos--is more tractable, because once a human determines that a piece 
of content should be banned machine learning can help do so at 
incredible speed and scale. To this end, the platforms were partially 
successful. Facebook estimated that around 80 percent of re-upload 
attempts were caught via automated means. The other 20 percent were 
likely videos that had been modified in ways specifically meant to 
trick machine learning. There are several simple techniques to do so 
and such techniques are well understood as they have been honed for 
years by content pirates looking to defeat the copyright scanning 
mechanisms of major video sites. Still, there is serious room for 
improvement in this area, which I will outline.
                  iv. what can the tech companies do?
    There are several steps I recommend social platforms undertake to 
address the critical safety issues we are discussing today.
    (1) Embrace transparent and proportional responses to content 
violations.--The major tech platforms face an impossible problem when 
various segments of societies around the world demand incompatible 
solutions to complex international issues. The news media regularly 
bemoans the power of these companies while calling for them to regulate 
the political speech of millions. Policy makers demand that the 
companies collect as little identifiable data as possible on users 
while also expecting them to be able to discern professional spies from 
billions of legitimate users. Political parties around the world ask 
for the platforms to censor their opponents and appeal any equivalent 
moderation of their own content.
    The platforms have partially created this problem for themselves by 
not being transparent about the tradeoffs that must be considered when 
solving such problems. This includes many issues around content 
moderation, where the companies have been unwillingly forced into the 
position of referee over legally protected political speech in 
developed democracies like the United States. While there is no single 
answer that will keep all parties happy, the platforms must do a much 
better job of elucidating their thinking processes and developing 
public criteria that bind them to the precedents they create with every 
decision.
    The other focus should be on expanding the public discussion on 
content moderation beyond just deleting posts and banning users--the 
standard response for extreme content. There remain many kinds of 
speech that are objectionable to some in society, but not to the point 
where huge, democratically unaccountable corporations should completely 
prohibit such speech. The decisions made in these gray areas create 
precedents that aim to serve public safety and democratic freedoms but 
can also imperil both.
    In my view, each of these major platforms can be divided into 
several different components, each with unique capabilities to amplify 
speech and, by extension, the potential benefits and harm from that 
speech. I have included a basic decomposition of a social media 
platform, with the greatest reach (and least private) components on top 
and the components with the highest expectation of privacy and the 
least reach on the bottom.
    The two most important components are the advertising and 
recommendation engines, partially due to the huge amplification either 
can provide, but also because these are the two components that put 
content in front of people who did not ask to see it. A member of a 
private anti-vaccination group has affirmatively chosen to expose 
themselves to those views, and it would be reasonable for large 
platforms to let private groups like that exist. It is also reasonable 
for them not to allow anti-vaccination campaigns to trade money for 
amplification via advertising, thereby pushing their content onto 
millions who had demonstrated no desire to see it.
    A public embrace of transparent mechanisms for content moderation 
by the companies, combined with more nuanced discussion by policy 
makers and the media, would go a long way toward creating an 
environment where these issues can be productively debated and better 
understood.

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    (2) Make moderated content available for academic study.--Part of 
bringing new transparency to tech platforms' decision-making process 
should be the creation of archives of moderated content that could be 
provided to academic researchers under privacy-preserving terms. While 
the companies have been aggressively pushing back against claims of 
political bias it is difficult for outside observers to verify their 
claims without access to data. The deletion of moderated content also 
has negative impacts on groups studying war crimes \13\ and academics 
who would like to better understand foreign influence campaigns. In 
both cases, a time-limited archive of moderated content could enable 
useful research while also protecting user privacy. Something like this 
already exists for copyright-related takedowns.\14\
---------------------------------------------------------------------------
    \13\ https://phys.org/news/2018-09-crucial-video-evidence-war-
crimes.html.
    \14\ https://www.lumendatabase.org/.
---------------------------------------------------------------------------
    This is an area for more study by Congress, as I have heard 
multiple attorneys from the large companies remark that such as archive 
would likely not be compatible with current U.S. or E.U. privacy laws. 
The creation of a safe harbor for academic study should be part of the 
consideration of any U.S. privacy legislation.
    (3) Establish better coordinating bodies for multiple abuse 
types.--During the height of the struggle against the Islamic State's 
on-line propaganda efforts, the major tech companies created a new 
coordinating body: The Global Internet Forum to Counter Terrorism.\15\ 
This group has been somewhat successful in building capabilities in 
smaller members while creating a forum for collaboration among the 
larger members. It is time to follow this initial foray with a much 
more ambitious coordinating body between tech companies focused on 
adversarial use of their technologies.
---------------------------------------------------------------------------
    \15\ https://www.gifct.org/.
---------------------------------------------------------------------------
    Several weeks ago, my colleagues at Stanford and I released a 
report \16\ with 45 recommendations on securing the U.S. election 
system from attack. One of our recommendations was the creation of a 
coordinating body in the model of the Financial Services ISAC \17\ and 
other successful examples. Such a body would need its own budget, staff 
with security clearances to receive threat briefings, technical tools, 
and the power to facilitate sharing and consensus building among the 
membership. Counterterrorism is one of several missions along with 
protecting against advanced cyber attack, election security, and 
combating fraud that could be handled by working groups inside such an 
organization without the need for separate, specialized organizations.
---------------------------------------------------------------------------
    \16\ http://electionreport.stanford.edu.
    \17\ https://www.fsisac.com/.
---------------------------------------------------------------------------
    Congress can assist with this effort by creating privacy and 
antitrust safe harbors around the sharing of information and banning of 
proscribed content.
    (4) Reduce the movement of users to intentionally radicalizing 
sites.--One of the issues a new coordinating body could tackle is how 
to handle the message boards and social media sites that intentionally 
host radical groups that support violent acts. Such websites seem to be 
legal under U.S. law, although legal action in other countries could 
still bring pressure on their operators. The large tech firms do not 
(and should not) have the ability to ban such sites from existing. What 
they can do, however, is reduce the chance that content on their 
platforms can be used as a jumping-off point for these communities.
    A coordinating body could decide to maintain a list of sites that 
could then be voluntarily banned from the major social media platforms. 
As of today, Facebook, Google, and Twitter are deciding on a per-page 
basis of whether to allow links to these sites. A global ban on these 
domains would be consistent with steps they have taken against malware-
spreading, phishing, or spam domains and would allow those sites to 
exist while denying their supporters the capability to recruit new 
followers on the large platforms.
    (5) Establish separate standards for manipulated media.--While not 
directly related to today's focus on counterterrorism, the rise of 
synthetic or manipulated media (such as Deep Fakes) is another serious 
challenge for the major social media platforms. Several recent hearings 
\18\ have focused on recent video of Speaker Pelosi that was edited to 
slur her words. While distasteful, this video falls within the 
traditional bounds of allowed political criticism and was demonstrated 
to have been uploaded by an individual U.S. citizen and not as part of 
an organized disinformation campaign.\19\ Personally, I believe this 
kind of distasteful political speech should not be centrally censored, 
either by Government action (which would almost certainly be 
Constitutionally precluded) or by the platforms.
---------------------------------------------------------------------------
    \18\ https://intelligence.house.gov/news/
documentsingle.aspx?DocumentID=657.
    \19\ https://www.thedailybeast.com/we-found-shawn-brooks-the-guy-
behind-the-viral-drunk-pelosi-video.
---------------------------------------------------------------------------
    This is a great example of an issue that deserves a more nuanced 
approach. In this case, I believe the tech platforms need a new set of 
policies defining manipulated and synthetic media that is not tied to 
any fact-checking processes. While the companies do not want to set 
themselves up as the Ministry of Truth, they should be able to label 
misleading videos based solely upon technical evidence and remove them 
from recommendation systems. Such labels should be applied much more 
aggressively than they are now, including to comedy clips \20\ and 
other uses that are not intended to mislead.
---------------------------------------------------------------------------
    \20\ An example of a comedy clip that should be allowed to exist 
but labeled as edited: https://www.facebook.com/JimmyKimmelLive/videos/
drunk-donald-trump-i-dont-know-what-the-hell-hes-talking-about-edition/
686503181736071/.
---------------------------------------------------------------------------
    (6) Create robust perceptual fingerprinting algorithms.--The most 
common standard for creating digital fingerprints of images is 
PhotoDNA. This technology, invented by Microsoft over a decade ago, has 
had a huge impact on the ability of technology providers to work with 
law enforcement and the National Center on Missing and Exploited 
Children (NCMEC) to fight the spread of child sexual abuse materials. 
While incredibly successful, PhotoDNA is showing its age and is not up 
to the current needs of our industry.
    The first issue is the lack of robustness against intentional 
attempts to distort images to defeat the algorithm. Microsoft 
understands the potential weakness of PhotoDNA, which is why it 
carefully guards the secret of its operation using intellectual 
property laws and restrictive contracts with their partners. While 
Microsoft has allowed several other large companies to use the 
algorithm in their own data centers, it has never been embedded in 
client-side software and is no longer available in the source code form 
to smaller companies. PhotoDNA was also built specifically for still 
images and attempts to apply it to video have been computationally 
inefficient.
    There are video hashing algorithms available inside of the big 
platforms, and these have been shared with other members of Global 
Internet Forum to Counter Terrorism (GIFCT), but this is a toolset that 
can still be expanded publicly.
    This is also an area where academic computer science can directly 
contribute. There has been a great deal of academic work on machine 
vision over the last decade, and there is no reason why there cannot be 
a new revolution in perceptual algorithms that are robust enough 
against attack to be publicly published and deployed in many more 
circumstances.
    My recommendation to industry is to encourage the creation of 
replacements for PhotoDNA via a large public competition, similar to 
those run by NIST to choose encryption algorithms but backed with cash 
prizes. For a reasonable investment, a consortium of large companies 
could fund multiple rounds of research, development, testing and 
qualification of robust fingerprinting algorithms for various uses. The 
winning algorithms could then be licensed freely and deployed much more 
widely than PhotoDNA is currently.
    (7) Develop client-side machine learning for safety purposes.--
Another area of potential technical advancement is in the use of 
machine learning on our ever-more-powerful handheld devices. The 
deployment of end-to-end encryption technologies in billion-user 
platforms has led to huge improvements to the privacy of law-abiding 
individuals but has also posed serious challenges for law enforcement. 
At Stanford, we are looking into ways to solve this issue without 
reducing privacy and security.
    One possible model is to deploy some of the machine learning 
techniques that have been used to look for malicious content into the 
end devices. Such an architectural shift would allow the platforms to 
provide mathematically proven privacy while also looking for 
potentially harmful content and prompting the user to decrypt the 
connection and ask for assistance. This would not be a valid approach 
to conspiratorial use of communication platforms among willing 
participants, but it could provide other mitigations as more platforms 
move to encrypting more data.
    There are many difficult decisions our country has made when 
balancing individual privacy with collective safety. End-to-end 
encryption has created a whole new set of balances between legitimate 
equities, and we will be convening a workshop at Stanford in September 
to bring together civil society, law enforcement, tech companies, and 
academics to discuss ways forward.
    Thank you again for the opportunity to speak with you today. I look 
forward to your questions.

    Mr. Rose. Thank you for your testimony.
    I now recognize Mr. Buchanan for his statement for 5 
minutes.

   STATEMENT OF BEN BUCHANAN, ASSISTANT TEACHING PROFESSOR, 
   GEORGETOWN UNIVERSITY, SENIOR FACULTY FELLOW, CENTER FOR 
        SECURITY AND EMERGING TECHNOLOGY, MORTARA CENTER

    Mr. Buchanan. Thank you, Chairman Rose and Ranking Member 
Walker. My name is Ben Buchanan. I am an assistant teaching 
professor at the School of Foreign Service and a senior faculty 
fellow at the Center for Security and Emerging Technology, both 
at Georgetown University. I am also a global fellow at the 
Woodrow Wilson Center.
    My research specialty is examining how cybersecurity and 
machine learning shape international security. To help 
structure our discussion, I would like to offer a few thoughts.
    First, AI offers some promise as a tool for moderation on-
line. Social media platforms operate at a gigantic scale, 
sometimes including several billion users. It is deeply 
unrealistic to think that any team of humans will be able to 
monitor communications at that scale without automated tools. 
Social media moderation remains a thankless and grueling job, 
but machine learning is already useful in lessening the burden 
at least somewhat.
    Optimists, as you said, Mr. Chairman, envision a future in 
which AI quickly and effectively takes on the majority of this 
moderation task. I am deeply skeptical that this is possible. 
While machine learning is powerful, the moderation problem is 
extremely difficult, and I would like to tell you why that is 
the case.
    First, context is vitally important, and context can often 
be hard for algorithms to grasp. The same video of a terrorist 
attack might be propaganda in one setting but legitimate news 
reporting in another. The same video of soldiers on patrol may 
in one format be meant to instill patriotic pride but in other 
context serve as a threat to those soldiers.
    My understanding of the technology is that it is a long way 
from being able to identify this context and respond 
appropriately.
    Second, machine learning systems, by definition, rely on 
distilling patterns. Some objectionable content differs from 
what came before or as in a language that machine learning 
systems cannot parse well.
    As you said, Mr. Chairman, Facebook says that the systems 
are 99 percent effective against propaganda from the Islamic 
State and al-Qaeda. This stat seems overly optimistic to me 
given the pattern limitations of machine learning systems. Both 
terrorist groups exhibit consistent patterns in their messages, 
making them easier to identify.
    More generally, looking beyond just those two terrorist 
groups, the AP found that much objectionable content slipped 
through automated filtering, including an execution video, 
images of severed heads, and propaganda honoring martyred 
militants.
    The third reason I am skeptical that machine learning can 
solve the moderation problem is that adversaries will adapt and 
systems will not have time to respond. Several of you have 
mentioned the terrible massacre in Christchurch, New Zealand, 
which was streamed live all over the world. Such a thing had 
never been done before. The video went viral, in part, due to 
how users slightly edited the footage to evade detection of 
automated systems.
    Unfortunately, we must assume that our adversaries will 
continue to innovate and improve.
    Fourth, and related, is that partial success with content 
moderation is often not sufficient. Though Facebook and YouTube 
were able to take down some copies of the Christchurch video, 
many other copies evaded their detection. The copies that did 
escape the filters were more than sufficient to ensure that the 
video attracted wide-spread attention.
    When my students in class get 90 percent of the questions 
right, they get an A or an A-minus. Unfortunately, even a very 
good percentage in the moderation problem is not enough to 
ensure success.
    In sum, to solve the moderation problem, an AI system would 
have to not just--not just identify content that might be 
objectionable, but also grasp context, discover new patterns, 
respond quickly to an adversary's changing tactics, and work 
correctly a very large percentage of the time without a large 
number of false positives. I am skeptical whether such a system 
will exist in the near future.
    I would encourage you to ask social media companies whether 
they believe such a system is possible and why, or if they do 
not think it is attainable, then what their plan is to scale 
content moderation to billions of users.
    There is one other point to this discussion that I believe 
deserves attention: Recommendation systems. Such systems will 
suggest content to users on a social media platform based on 
what they and others have already viewed. This creates a loop 
designed to keep users on the platform.
    Some research suggests that these recommendation systems, 
such as the recommended videos feature on YouTube, are built to 
push users toward ever more extreme content. The research 
raises a very alarming possibility, that not only are automated 
moderation systems insufficient for removing objectionable 
content, but that other automated systems, recommendation 
algorithms, in fact, are driving users to objectionable content 
that they otherwise would not find, making them a tool for 
radicalization.
    The public data on this subject is limited and not yet 
conclusive, but should cause concern. I encourage you to ask 
technology companies about them and to make more data 
available.
    In conclusion, we ought not to lose sight of why we are 
here today. Technology is not the reason for this hearing. We 
are here because humans abuse a system that other humans have 
created. Human moderation as well as current and near-future 
technology seem insufficient to stop that abuse. Social media 
platforms could likely do more, such as reducing how quickly 
messages go viral, expanding their teams focused on this issue, 
making more data available, and changing recommendation 
systems. That said, my best guess is these steps might mitigate 
the problem but are deeply unlikely to solve it.
    I thank you again for holding this hearing and look forward 
to your questions.
    [The prepared statement of Mr. Buchanan follows:]
                   Prepared Statement of Ben Buchanan
    Thank you, Chairman Rose and Ranking Member Walker, for holding 
this important hearing and for inviting me to testify.
    My name is Ben Buchanan. I am an assistant teaching professor at 
the School of Foreign Service and a senior faculty fellow at the Center 
for Security and Emerging Technology, both at Georgetown University. I 
am also a global fellow at the Woodrow Wilson International Center for 
Scholars, where I teach introductory classes on AI and cybersecurity 
for Congressional staff. My research specialty is examining how 
cybersecurity and AI shape international security. I co-authored a 
paper entitled ``Machine Learning for Policymakers.''\1\
---------------------------------------------------------------------------
    \1\ Buchanan, Ben and Taylor Miller. ``Machine Learning for 
Policymakers.'' Belfer Center for Science and International Affairs 
(2017), https://www.belfercenter.org/sites/default/files/files/
publication/MachineLearningforPolicymakers.pdf.
---------------------------------------------------------------------------
    The title of todays' hearing rightly alludes to the possibilities 
and limitations of AI as it applies to counterterrorism. To help 
structure our examination of both, I'd like to offer some thoughts to 
conceptualize the potential areas of contribution and concern.
                       ai as a tool of moderation
    AI offers some promise as a tool of moderation. Social media 
platforms operate at a gigantic scale, sometimes including several 
billion users. It is deeply unrealistic to think that any team of 
humans will be able to monitor communications at that scale without 
automated tools. Social media moderation remains a thankless and 
grueling job for those individuals who do it, but AI is already useful 
in lessening the burden at least somewhat. Perhaps most importantly, AI 
sometimes helps platforms respond more quickly to objectionable 
content, swiftly preventing it from spreading. Optimists envision a 
platform in which AI quickly and effectively takes on the vast, or the 
entire, share of the difficult job of moderation, leaving users to 
enjoy an on-line experience that meets their expectations.
    I am deeply skeptical that this is possible. In general, policy 
makers underestimate the power of machine learning systems and the 
rapid rate of change, but I think the moderation problem is one of the 
most fiendishly difficult ones--so difficult, in fact, that technology 
companies struggle to come up with enforceable and clear standards that 
their human moderators can consistently enforce, much less standards 
that machines can apply.
    There are at least four reasons why this problem is hard. First is 
that context is vitally important, and context can often be hard for 
algorithms to grasp. The same video of a terrorist attack might be 
propaganda in one setting but legitimate news reporting in another. The 
same video of soldiers on patrol may in one format be meant to instill 
patriotic pride but in another context serve as a threat to those 
soldiers. My understanding of the technology is that it is a long way 
from being able to identify this context and respond appropriately.
    Second is that machine learning-based systems by definition rely on 
distilling patterns, and objectionable content does not always fit into 
neatly observable patterns. For example, content moderation systems are 
vastly less effective in unfamiliar languages. In addition, they are 
less effective at catching objectionable content that takes on 
unfamiliar forms. For example, one 5-month study and whistleblower 
complaint obtained by the AP contends that Facebook, using both its 
automated and human moderation capabilities, removed only 38 percent of 
content posted by terrorist organizations. Facebook claims that its 
systems are much more effective, citing a 99 percent success rate, but 
it seems that the firm's denominator in calculating that percentage is 
only a subset of the content that is prohibited. The AP found that much 
objectionable content slipped through algorithmic filtering, including 
``an execution video, images of severed heads, propaganda honoring 
martyred militants.''\2\
---------------------------------------------------------------------------
    \2\ Butler, Desmond, and Barbara Ortutay, ``Facebook Auto-Generates 
Videos Celebrating Extremist Images'', Wall Street Journal, 9 May 2019, 
https://www.apnews.com/f97c24dab4f34bd0b48b36f2988952a4.
---------------------------------------------------------------------------
    The third reason I am skeptical that AI can solve the moderation 
problem is that, sometimes, there is not sufficient time to train 
machine learning systems with new data. Consider the gun massacre in 
Christchurch, New Zealand, in which the objectionable content was 
streamed live all over the world. Such a thing had never been done 
before, and social media companies' automated systems were not nearly 
sufficient to keep the video from going viral, in part due to how users 
slightly edited the video to evade the detection of those systems. 
Unfortunately, we must assume that our adversaries will innovate and 
improve, finding weaknesses and exploiting them before companies have a 
chance to respond.
    Fourth, and related, is that partial success with content 
moderation is often not sufficient. Consider the video of the terrible 
Christchurch shooting once more. As I said, though Facebook and YouTube 
were able to take down some copies, many other copies evaded their 
detection. The copies that did escape the filter were more than 
sufficient to ensure that the video still was able to go viral and 
attract wide-spread attention.\3\
---------------------------------------------------------------------------
    \3\ Timberg, Craig, Drew Harwell, Hamza Shaban, and Andrew Ba Tran, 
``The New Zealand Shooting Shows How YouTube and Facebook Spread Hate 
and Violent Images--Yet Again'', Washington Post, 15 March 2019, 
https://www.washingtonpost.com/technology/2019/03/15/facebook-youtube-
twitter-amplified-video-christchurch-mosque-shooting/?utm_term=.b37e96- 
04a2da.
---------------------------------------------------------------------------
    In sum, to solve the moderation problem an AI system would have to 
not just identify content that might be objectionable, but also grasp 
context, be able to identify objectionable content that is distinct 
from what came before and in unfamiliar languages, respond quickly to 
an adversary's changing tactics, and work correctly a very large 
percentage of the time without a large number of false positives. I am 
skeptical whether such a system exists or will exist in the very near 
future. In short, from my vantage point, I see more limitations here 
than possibilities. I would encourage you to ask representatives of 
social media companies whether they think such a system is achievable 
or, if they do not think such a system is achievable, then what their 
plan is to scale content moderation to billions of users.
                     ai as a tool of radicalization
    There is one other point to this discussion that I believe deserves 
significant attention: Research has recently come out suggesting that 
automated recommendation systems can contribute to the radicalization 
of individuals. Such systems will recommend videos, articles, or other 
content to users on a social media platform based on what they have 
consumed on it already and what others users have viewed and liked, 
creating a loop of content designed to keep users on the platform.
    Some academics argue that it is an effect by design for these 
recommendation systems, such as the Recommended Videos feature on 
YouTube, to push users toward even more extreme videos.\4\ In this 
sense, then, AI is not a force for moderation on-line but in fact a 
force for radicalization.
---------------------------------------------------------------------------
    \4\ Nicas, Jack, ``How YouTube Drives People to the Internet's 
Darkest Corners'', Wall Street Journal, 7 February 2018, https://
www.wsj.com/articles/how-youtube-drives-viewers-to-the-internets-
darkest-corners-1518020478 Tufekci, Zeynep, ``YouTube, the Great 
Radicalizer'', New York Times, 10 March 2018, https://www.nytimes.com/
2018/03/10/opinion/sunday/youtube-politics-radical.html.
---------------------------------------------------------------------------
    My assessment of this research is that raises significant concerns, 
though I do not think the data is yet definitive. The research does, 
however, raise a very alarming possibility: That not only are automated 
moderation systems insufficient for removing objectionable content but 
that other automated systems--technology companies' recommendation 
algorithms--in fact are driving users to objectionable content that 
they otherwise would not find. If this is the case, then the technical 
limitations of AI work against the interests of National security, 
while its vast possibilities work for those who benefit from 
radicalization on-line. Again, the public data is limited and not yet 
conclusive, but it seems to me that the net effects of recommendation 
systems that steer users to content generated by others users need 
substantial additional study. I encourage you to ask technology 
companies about them.
    Worse still is that automated algorithms on social media platforms 
cannot just drive users to objectionable content but help make that 
content more appealing and visible. The AP and academic researchers 
found that Facebook's algorithms automatically generate slick videos of 
some of the extremist content that has evaded its filtering. These 
algorithmically generated videos take images and videos that extremists 
have uploaded and package it to make it more neatly edited and 
synthesized--in essence, unintentionally doing the work of 
propaganda.\5\
---------------------------------------------------------------------------
    \5\ Butler, Desmond, and Barbara Ortutay, ``Facebook Auto-Generates 
Videos Celebrating Extremist Images'', Wall Street Journal, 9 May 2019, 
https://www.apnews.com/f97c24dab4f34bd0b48b36f2988952a4.
---------------------------------------------------------------------------
                               conclusion
    In conclusion, we ought not to lose sight of a vital broader point: 
Technology is not the reason we are here today. We are here because 
humans abuse a system that other humans have created. Human moderation 
as well as current and near-future technology are--in my view--
insufficient to stop that abuse. My sense is that there is likely more 
that social media platforms could do to better manage the problem, such 
as reducing how quickly messages go viral, expanding their AI research 
teams focused on this issue, and adjusting their recommendation and 
generation algorithms, even if it comes at the expense of their 
business. That said, my best guess is that these steps might mitigate 
the problem but are unlikely to solve it.
    I thank you again for holding this hearing and I look forward to 
your questions.

    Mr. Rose. Thank you for your testimony.
    I now recognize Mr. Sanchez to summarize his statement for 
5 minutes.

   STATEMENT OF JULIAN SANCHEZ, SENIOR FELLOW, CATO INSTITUTE

    Mr. Sanchez. Thank you, Chairman Rose, Ranking Member 
Walker, and the committee in general, for the opportunity to 
address you today. My name is Julian Sanchez. I am a senior 
fellow at the Cato Institute. As a firm believer in comparative 
advantage, given the technical expertise represented on the 
panel, I think it makes more sense for me to focus on some of 
the broader policy considerations implicated by automated 
content filtering.
    I think the Christchurch massacre and the attempts to halt 
spread of the video of that brutal attack are perhaps a good 
place to start because they illustrate some of the policy and 
value-based tradeoffs involved.
    We have two pretty good public accounts by legal scholar 
Kate Klonick in The New Yorker and reporters Craig Timberg and 
Elizabeth Dwoskin in The Washington Post of the efforts by 
Facebook and YouTube, respectively, to limit spread of that 
video. If those platforms attracted a fair amount of criticism 
for their failure to halt its spread sufficiently, rapidly, or 
effectively, it was certainly not for lack of trying, as is 
clear from their portraits. Both companies had large moderation 
teams that worked around the clock in an effort to halt the 
spread of the video.
    One issue they faced was, as mentioned previously, 
modifications by uploaders. Small changes to the video, 
reversing it left-to-right, adding a filter, adding animations, 
like Instagram filters do, atop it would make it difficult for 
an automated system to recognize that video as the same 
content. So there was constant updating, but it couldn't match 
the speed which the new changes were made.
    There is the additional problem of judging context and 
purpose. Many and perhaps even most uploaders of that video 
were not uploading it with the purpose of glorifying terrorism. 
Many were doing so because they believed it newsworthy, many 
were doing so in order to condemn terrorism and illustrate the 
dangers that hateful ideologies can lead to. Some were perhaps 
misguidedly doing so to invoke sympathy for the victims.
    It is a complicated question whether those purposes justify 
it in the eyes of the platforms, but in that case, the 
platforms made a decision to balance the social equities 
weighed in favor of broad prohibition, irrespective of the 
purpose of the upload, though, that is a difficult content 
sensitive decision to make. Indeed, in the interest of halting 
the spread of the video, many platforms were forced to 
implement broad restrictions on searching and sharing of new 
content in order to finally get it, to some extent, under 
control.
    So I think, you know, this illustrates a few things. One is 
the effectiveness of AI has been very much exaggerated. We see 
in the popular press reports to the effect that, for example, 
Facebook's AI systems pull down 99 percent of the content--
terrorist content that is uploaded, which is a slight 
misrepresentation of the actual report which found that, of the 
content they ultimately removed, 99 percent was identified by 
automated filtering systems, which is unsurprising.
    Software works a lot faster than people do as a rule but 
doesn't tell you what percentage of content on the site that 
they didn't identify. All of it they didn't identify remained 
up. Doesn't tell you how much of that there was, and it doesn't 
tell you how much of the content it did flag and pull down was 
a false positive, either because it misidentified benign 
content as extremist or because it misidentified the context of 
the upload.
    This is a common problem, and it is one reason that a 
series of U.N. special rapporteurs on human rights, as well as 
a broad array of civil society groups and human rights groups, 
have opposed a proposal in the European Union to mandate 
automated filtering by platforms to remove terrorist content.
    Journalists and activists reported that there is a real 
social cost to false positives. For example, videos attempting 
to document human rights abuses and atrocities have been 
mistakenly pulled down, effectively deleting evidence of war 
crimes. More recently, a crackdown on white supremacists 
content by YouTube resulted in the removal of content hosted by 
a number of educational associations. Again, it is the same 
content; the purpose is different.
    Again, you know, AI is not a panacea, and mandates of the 
kind the European Union proposed, as the U.N. special 
rapporteurs argued, would have incentivized a sort of err on 
the side of take-down mentality rather than an attempt to weigh 
values in a context-specific way.
    Finally, I would just suggest that, given that all social 
media platforms engage in monitoring as private entities and 
filtering of content that goes far beyond what the Government 
would permit it to engage in under the First Amendment, it 
would be unwise for Congress to intervene legislatively in a 
way that would call into legal question whether those private 
actions are truly private and open to court challenge, the 
policies that filter so much of the objectionable content that 
creates the public fora we now enjoy.
    I thank you for this invitation and look forward to your 
questions.
    [The prepared statement of Mr. Sanchez follows:]
                  Prepared Statement of Julian Sanchez
                             June 25, 2019
    My thanks to the Chair, Ranking Member, and all Members of this 
subcommittee for the opportunity to speak to you today.
    As a firm believer in the principle of comparative advantage, I 
don't intend to delve too deeply into the technical details of 
automated content filtering, which my co-panelists are far better 
suited than I to address. Instead I want to focus on legal and policy 
considerations, and above all to urge Congress to resist the temptation 
to intervene in the highly complex--and admittedly highly imperfect--
processes by which private on-line platforms seek to moderate both 
content related to terrorism and ``hateful'' or otherwise objectionable 
speech more broadly. (My colleague at the Cato Institute, John Samples, 
recently published a policy paper dealing still more broadly with 
issues surrounding regulation of content moderation policies, which I 
can enthusiastically recommend to the committee's attention.)\1\
---------------------------------------------------------------------------
    \1\ John Samples, ``Why the Government Should Not Regulate Content 
Moderation of Social Media'' (Cato Institute) https://www.cato.org/
publications/policy-analysis/why-government-should-not-regulate-
content-moderation-social-media#full.
---------------------------------------------------------------------------
    The major social media platforms all engage, to varying degrees, in 
extensive monitoring of user-posted content via, a combination of human 
and automated review, with the aim of restricting a wide array of 
speech those platforms deem objectionable, typically including nudity, 
individual harassment, and--more germane to our subject today--the 
promotion of extremist violence and, more broadly, hateful speech 
directed at specific groups on the basis of race, gender, religion, or 
sexuality. In response to public criticism, these platforms have in 
recent years taken steps to crack down more aggressively on hateful and 
extremist speech, investing in larger teams of human moderators and 
more sophisticated algorithmic tools designed to automatically flag 
such content.\2\
---------------------------------------------------------------------------
    \2\ See, e.g., Kent Walker ``Four steps we're taking today to fight 
terrorism online'' Google (June 18, 2017) https://www.blog.google/
around-the-globe/google-europe/four-steps-were-taking-today-fight-
online-terror/; Monika Bickert and Brian Fishman ``Hard Questions: What 
Are We Doing to Stay Ahead of Terrorists?'' Facebook (November 8, 2018) 
https://newsroom.fb.com/news/2018/11/staying-ahead-of-terrorists/; 
``Terrorism and violent extremism policy'' Twitter (March 2019) https:/
/help.twitter.com/en/rules-and-policies/violent-groups.
---------------------------------------------------------------------------
    Elected officials and users of these platforms are often 
dissatisfied with these efforts--both with the speed and efficacy of 
content removal and the scope of individual platforms' policies. Yet it 
is clear that all the major platforms' policies go far further in 
restricting speech than would be permissible under our Constitution via 
state action.
    The First Amendment protects hate speech. The Supreme Court has 
ruled in favor of the Constitutional right of American neo-Nazis to 
march in public brandishing swastikas,\3\ and of a hate group to picket 
outside the funerals of veterans displaying incredibly vile homophobic 
and anti-military slogans.\4\
---------------------------------------------------------------------------
    \3\ National Socialist Party of America v. Village of Skokie, 432 
U.S. 43 (1977).
    \4\ Snyder v. Phelps, 562 U.S. 443 (2011).
---------------------------------------------------------------------------
    While direct threats and speech that is both intended and likely to 
incite ``imminent'' violence fall outside the ambit of the First 
Amendment, Supreme Court precedent distinguishes such speech from ``the 
mere abstract teaching . . . of the moral propriety or even moral 
necessity for a resort to force and violence,''\5\ which remains 
protected. Unsurprisingly, in light of this case law, a recent 
Congressional Research Service report found that ``laws that 
criminalize the dissemination of the pure advocacy of terrorism, 
without more, would likely be deemed unconstitutional.''\6\
---------------------------------------------------------------------------
    \5\ U.S. v. Brandenburg, 395 U.S. 444 (1969).
    \6\ Kathleen Anne Ruane, ``The Advocacy of Terrorism on the 
Internet: Freedom of Speech Issues and the Material Support Statutes'' 
Congressional Research Service Report T44646 (September 8, 2016) 
https://fas.org/sgp/crs/terror/R44626.pdf.
---------------------------------------------------------------------------
    Happily--at least, as far as most users of social media are 
concerned--the First Amendment does not bind private firms like 
YouTube, Twitter, or Facebook, leaving them with a much freer hand to 
restrict offensive content that our Constitution forbids the law from 
reaching. The Supreme Court reaffirmed that principle just this month, 
in a case involving a public access cable channel in New York. Yet as 
the Court noted in that decision, this applies only when private 
determinations to restrict content are truly private. They may be 
subject to First Amendment challenge if the private entity in question 
is functioning as a ``state actor''--which can occur ``when the 
Government compels the private entity to take a particular action'' or 
``when the Government acts jointly with the private entity.''\7\
---------------------------------------------------------------------------
    \7\ Manhattan Community Access Corp. v. Halleck, 17-1702 (2019).
---------------------------------------------------------------------------
    Perversely, then, legislative efforts to compel more aggressive 
removal of hateful or extremist content risk producing the opposite of 
the intended result. Content moderation decisions that are clearly 
lawful as an exercise of purely private discretion could be recast as 
government censorship, opening the door to legal challenge. Should the 
courts determine that legislative mandates had rendered First Amendment 
standards applicable to on-line platforms, the ultimate result would 
almost certainly be more hateful and extremist speech on those 
platforms.
    Bracketing legal considerations for the moment, it is also 
important to recognize that the ability of algorithmic tools to 
accurately identify hateful or extremist content is not as great as is 
commonly supposed. Last year, Facebook boasted that its automated 
filter detected 99.5 percent of the terrorist-related content the 
company removed before it was posted, with the remainder flagged by 
users.\8\ Many press reports subtly misconstrued this claim. The New 
York Times, for example, wrote that Facebook's ``A.I. found 99.5 
percent of terrorist content on the site.''\9\ That, of course, is a 
very different proposition: Facebook's claim concerned the ratio of 
content removed after being flagged as terror-related by automated 
tools versus human reporting, which should be unsurprising given that 
software can process vast amounts of content far more quickly than 
human brains. It is not the claim that software filters successfully 
detected 99.5 percent of all terror-related content uploaded to the 
site--which would be impossible since, by definition, content not 
detected by either mechanism is omitted from the calculus. Nor does it 
tell us much about the false-positive ratio: How much content was 
misidentified as terror-related, or how often such content appeared in 
the context of posts either reporting on or condemning terrorist 
activities.
---------------------------------------------------------------------------
    \8\ Alex Schultz and Guy Rosen ``Understanding the Facebook 
Community Standards Enforcement Report'' https://
fbnewsroomus.files.wordpress.com/2018/05/understanding_the_com- 
munity_standards_enforcement_report.pdf.
    \9\ Sheera Frenkel, ``Facebook Says It Deleted 865 Million Posts, 
Mostly Spam'' New York Times (May 15, 2018). Facebook Says It Deleted 
865 Million Posts, Mostly Spam https://www.nytimes.com/2018/05/15/
technology/facebook-removal-posts-fake-accounts.html.
---------------------------------------------------------------------------
    There is ample reason to believe that such false positives impose 
genuine social cost. Algorithms may be able to determine that a post 
contains images of extremist content, but they are far less adept at 
reading contextual cues to determine whether the purpose of the post is 
to glorify violence, condemn it, or merely document it--something that 
may in certain cases even be ambiguous to a human observer. Journalists 
and human rights activists, for example, have complained that tech 
company crackdowns on violent extremist videos have inadvertently 
frustrated efforts to document human rights violations,\10\ and erased 
evidence of war crimes in Syria.\11\ Just this month, a YouTube 
crackdown on white supremacist content resulted in the removal of a 
large number of historical videos posted by educational institutions, 
and by anti-racist activist groups dedicated to documenting and 
condemning hate speech.\12\
---------------------------------------------------------------------------
    \10\ Dia Kayyali and Raja Althaibani, ``Vital Human Rights Evidence 
in Syria is Disappearing from YouTube'' https://blog.witness.org/2017/
08/vital-human-rights-evidence-syria-disappearing-youtube/.
    \11\ Bernhard Warner, ``Tech Companies Are Deleting Evidence of War 
Crimes'' The Atlantic (May 8, 2019). https://www.theatlantic.com/ideas/
archive/2019/05/facebook-algorithms-are-making-it-harder/588931/.
    \12\ Elizabeth Dwoskin, ``How YouTube erased history in its battle 
against white supremacy'' Washington Post (June 13, 2019). https://
www.washingtonpost.com/technology/2019/06/13/how-youtube-erased-
history-its-battle-against-white-supremacy/?utm_term=.e5391be45aa2.
---------------------------------------------------------------------------
    Of course, such errors are often reversed by human reviewers--at 
least when the groups affected have enough know-how and public prestige 
to compel a reconsideration. Government mandates, however, alter the 
calculus. As three United Nations special rapporteurs wrote, objecting 
to a proposal in the European Union to require automated filtering, the 
threat of legal penalties were ``likely to incentivize platforms to err 
on the side of caution and remove content that is legitimate or 
lawful.''\13\ If the failure to filter to the Government's satisfaction 
risks stiff fines, any cost-benefit analysis for platforms will favor 
significant overfiltering: Better to pull down ten benign posts than 
risk leaving up one that might expose them to penalties. For precisely 
this reason, the E.U. proposal has been roundly condemned by human 
rights activists \14\ and fiercely opposed by a wide array of civil 
society groups.\15\
---------------------------------------------------------------------------
    \13\ David Kaye, Joseph Cannataci, and Fionnuala Ni Aolain 
``Mandates of the Special Rapporteur on the promotion and protection of 
the right to freedom of opinion and expression; the Special Rapporteur 
on the right to privacy and the Special Rapporteur on the promotion and 
protection of human rights and fundamental freedoms while countering 
terrorism'' https://spcommreports.ohchr.org/TMResultsBase/
DownLoadPublicCommunicationFile?gId=24234.
    \14\ Faiza Patel, ``EU `Terrorist Content' Proposal Sets Dire 
Example for Free Speech Online'' (Just Security) https://
www.justsecurity.org/62857/eu-terrorist-content-proposal-sets-dire-
free-speech-online/.
    \15\ ``Letter to Ministers of Justice and Home Affairs on the 
Proposed Regulation on Terrorist Content Online'' https://cdt.org/
files/2018/12/4-Dec-2018-CDT-Joint-Letter-Terrorist-Content-
Regulation.pdf.
---------------------------------------------------------------------------
    A recent high-profile case illustrates the challenges platforms 
face: The efforts by platforms to restrict circulation of video 
depicting the brutal mass shooting of worshippers at a mosque in 
Christchurch, New Zealand. Legal scholar Kate Klonick documented the 
efforts of Facebook's content moderation team for The New Yorker,\16\ 
while reporters Elizabeth Dwoskin and Craig Timberg wrote about the 
parallel struggles of YouTube's team for The Washington Post \17\--both 
accounts are illuminating and well worth reading.
---------------------------------------------------------------------------
    \16\ Kate Klonick, ``Inside the Team at Facebook That Dealt With 
the Christchurch Shooting'' The New Yorker (April 25, 2019) https://
www.newyorker.com/news/news-desk/inside-the-team-at-facebook-that-
dealt-with-the-christchurch-shooting.
    \17\ Elizabeth Dwoskin and Craig Timberg ``Inside YouTube's 
struggles to shut down video of the New Zealand shooting--and the 
humans who outsmarted its systems'' Washington Post (March 18, 2019) 
https://www.washingtonpost.com/technology/2019/03/18/inside-youtubes-
struggles-shut-down-video-new-zealand-shooting-humans-who-outsmarted-
its-systems/?utm_term=.6a5916ba26c1.
---------------------------------------------------------------------------
    Though both companies were subject to vigorous condemnation by 
elected officials for failing to limit the video quickly or 
comprehensively enough, the published accounts make clear this was not 
for want of trying. Teams of engineers and moderators at both platforms 
worked around the clock to stop the spread of the video, by 
increasingly aggressive means. Automated detection tools, however, were 
often frustrated by countermeasures employed by uploaders, who 
continuously modified the video until it could pass through the 
filters. This serves as a reminder that even if automated detection 
proves relatively effective at any given time, they are in a perennial 
arms race with determined humans probing for algorithmic blind 
spots.\18\ There was also the problem of users who had--perhaps 
misguidedly--uploaded parts of the video in order to condemn the 
savagery of the attack and evoke sympathy for the victims. Here, the 
platforms made a difficult real-time value judgment that, in this case, 
the balance of equities favored an aggressive posture: Categorical 
prohibition of the content regardless of context or intent, coupled 
with tight restrictions on searching and sharing of recently uploaded 
video.
---------------------------------------------------------------------------
    \18\ See, e.g., Hossein Hosseini, Sreeram Kannan, Baosen Zhang, and 
Radha Poovendran ``Deceiving Google's Perspective API Built for 
Detecting Toxic Comments'' Arvix (February 2017) https://arxiv.org/abs/
1702.08138.
---------------------------------------------------------------------------
    Both the decisions the firms made and the speed and adequacy with 
which they implemented them in a difficult circumstance will be--and 
should be--subject to debate and criticism. But it would be a grave 
error to imagine that broad legislative mandates are likely to produce 
better results than such context-sensitive judgments, or that smart 
software will somehow obviate the need for a difficult and delicate 
balancing of competing values.
    I thank the committee again for the opportunity to testify, and 
look forward to your questions.

    Mr. Rose. Thank you to all the witnesses.
    I would like to now recognize Chairman Thompson if he would 
like to make an opening statement as well.
    Mr. Thompson. Thank you very much, Mr. Chairman.
    In the interest of time to get to our witnesses, I will 
just include my written statement for the record and we can go 
into questions.
    I yield back.
    Mr. Rose. All right. I want to respect your leadership as 
well and cede the floor to you for opening questions as well, 
Chairman.
    Mr. Thompson. Thank you very much.
    We will be holding a hearing with some of the companies 
tomorrow, and we are hoping to hear from them their position on 
some of the content.
    If you had an opportunity to ask those questions of the 
companies--and I will start with Dr. Buchanan--what questions 
do you think our committee should ask those companies about the 
terrorist content and what they are doing to protect their 
systems?
    Mr. Buchanan. Thank you, Congressman. I think there are a 
couple categories of inquiry you might pursue. One is how they 
plan to scale moderation to platforms that stretch to several 
billions of users. They will, I think, be optimistic about AI. 
As I said in my opening statement, I am less optimistic, and I 
think it is worth probing on if they do believe such a system 
can scale and function, how machine learning will overcome the 
problems of context and pattern matching that all three 
witnesses identified.
    As I said as well, another topic of discussion might be 
recommendation, algorithms, and their potential forces a tool 
of radicalization. I think companies could share more data 
about that and open that up to further study.
    Mr. Thompson. Mr. Stamos.
    Mr. Stamos. So I think Ben had some excellent questions. I 
think the two areas I would focus on is, first, I think a 
general problem the companies are facing on a bunch of 
different safety and content moderation issues is that their 
decision-making process is extremely opaque and the outcome of 
those decisions are very opaque. So I would be interested in 
hearing what plans they have to document the standards under 
which they are making these decisions and whether or not they 
would be willing to build capabilities for academics, such as 
Dr. Buchanan and myself, to have teams that have access to 
information that has been moderated.
    One of the challenges for outside groups studying these 
issues is that under kind-of current privacy laws and the terms 
of service of the companies, it is very difficult to get access 
to data once it has been deleted. So if they are taking down 
pro-terrorist content, it is very difficult to understand--for 
us to understand who is posting that, what does the content 
look like, what is the possible effectiveness, because once it 
is deleted, it is completely gone. I think asking them about 
building mechanisms so that other people can look over their 
shoulder and provide both useful feedback to them but then also 
information for Congress and the general public I think is 
really important.
    Mr. Thompson. Thank you.
    Mr. Sanchez.
    Mr. Sanchez. I think I would want to explore values 
questions. It is fairly easy in the absence of countermeasures 
to take down, you know, a particular kind of video of violence 
or of a hateful speech. So I would add to that, not just how 
you identify the video, but how do you judge the context, how 
do you determine the balance of interests when content might be 
uploaded as part of a critique, and how to deal with ambiguous 
cases where, you know, someone may have a complicated attitude 
toward an extremist group.
    Finally, I would ask them to explore the question of false 
positives. Again, as I highlighted previously, the issue of 
potential removal of evidence of war crimes and other socially 
valuable content that may be easily mistaken for harmful 
extremist content.
    Mr. Thompson. Mr. Sanchez, you mentioned Congress needed to 
kind-of step lightly in terms of some of what we are doing. You 
know, Germany kind-of moved forward in doing some things in 
this area that was kind-of limiting for companies, but the 
companies followed.
    What is your response to something like what was done in 
Germany?
    Mr. Sanchez. Well, Germany has a very different legal 
context. They prohibit images of the swastika and the Holocaust 
denial, a wide range of speech related to Nazism, whereas our 
Supreme Court has upheld the Constitutional right of Neo-Nazis 
to march brandishing swastikas in public speeches.
    What everyone's view on that is, that is the context here, 
and the ability of Facebook or YouTube to be more restrictive 
and say, we don't want Nazis on our platform depends on there 
being a private entity. As soon as they are viewable as a state 
actor as acting in coordination with the state or at the 
mandate of the state, the First Amendment applies. So we would 
risk, you know, either just the striking down----
    Mr. Thompson. I understand. So even though the companies 
complied, they didn't look at it as, you know, this is a major 
income producer for our company and we should follow the laws 
of the country if we want to continue to do business in this 
country?
    Mr. Sanchez. They clearly have decided to do that, and they 
are, to some extent, able to do that; although, again, there 
are, I think, value-based questions about whether you want to 
automatically remove, you know, all, for example, historical 
content related to Nazis.
    Mr. Thompson. Mr. Stamos, you want to comment on that?
    Mr. Stamos. Yes, just real quick, Mr. Chairman. I just want 
to point out, NetzDG, the law we are talking about in Germany, 
explicitly tied the enforcement policies to existing German 
law. So the rules that they wanted Facebook and Twitter and 
such to enforce are rules that the Germans would enforce 
themselves. The difference is they moved the action out of the 
courts into those companies but under existing German 
precedent.
    Almost all the speech we are talking about is legal in the 
United States. So as horrible as it is, the Christchurch 
shooter's video, the manifesto, are Constitutionally-protected 
speech in the United States, and the companies are acting on 
their own volition to take it down. So I think there is a 
significant difference here of the context in which the law was 
passed.
    Mr. Thompson. Doctor.
    Mr. Buchanan. I think I will defer to my colleagues on the 
legal questions here. I stick to international relations, and I 
am not a lawyer.
    Mr. Thompson. Thank you. I yield back.
    Mr. Walker. Are you bragging? No.
    Mr. Rose. The Chair now recognizes Ranking Member Mr. 
Walker for questions.
    Mr. Walker. Thank you, Mr. Chairman and Mr. Chairman.
    Mr. Sanchez, you note in your testimony that despite 
criticisms leveled at social media companies regarding content 
on their platforms, the companies are going much further in 
moderating content than the Government could and should do with 
a very clear warning against attempted Government intervention 
in this process.
    That being said, do you think that tech companies should be 
doing more to self-police for terror and other violent content 
because, despite the company's efforts, the public concerns 
continue to grow?
    Mr. Sanchez. You know, I think that is--that is hard to do 
in a generic way. I think there are case-by-case determinations 
to be made about what kind of speech is evolving around, you 
know, a particular piece of content or a particular group. So 
saying they should do more, should do less is hard to divorce 
from specific considerations at issue.
    Mr. Walker. OK. Let me dig in a little bit more. Let me go 
to Dr. Buchanan. Do you have an estimate of what the error rate 
is for extremist content flagged by AI? This could include 
news, educational materials, even counternarratives that are 
flagged as extremist content, but clearly are not. Do you have 
any percentage on that?
    Mr. Buchanan. No. I don't think there is any publicly-
available percentage. We have seen numbers from different 
academic studies that vary widely of how much content gets 
missed as a false negative, how much gets missed as a false 
positive. I think, as Mr. Stamos said, we would do better in 
studying this topic if there were more data available--made 
available by the companies, and right now, that is not the 
case.
    Mr. Walker. Mr. Stamos, you were the chief security officer 
for Facebook. Can you tell me those dates again, please?
    Mr. Stamos. June 2015 to August 2018.
    Mr. Walker. OK. You said there is a lot of misunderstanding 
and confusion and hype. From whose perspective? Who has the 
misunderstanding, who is confused, and who is hyping this?
    Mr. Stamos. So as I said, the companies themselves are 
hyping it. There is a number of independent companies who are 
trying to sell products who like to hype the capability of AI. 
There is a kind of a media, moral panic around some of these 
technologies that I think increases the coverage.
    Mr. Walker. OK. I believe you said, regarding the 
Christchurch shooting, quote--I believe you said some things 
could have been made or done differently with that?
    Mr. Stamos. Yes.
    Mr. Walker. You listed 7 things. My question is, were these 
things that should have been implemented during your time as 
chief security officer there at Facebook? This shooting only 
happened months after your tenure was completed. Do you know 
why or were you forbidden from implementing these things that 
could have made a difference?
    Mr. Stamos. I was never forbidden from implementing these 
things. So when I started at Facebook, the No. 1 content issue 
was the Islamic State, and that was the No. 1 area of focus, 
both in building the investigative teams, which worked for me, 
and then the engineering teams that were elsewhere in the org.
    This is an adversarial problem, so all of these issues are 
dynamic issues where you have intelligent adversaries who are 
changing their game based upon your moves.
    So I do think there are things that I would have done 
differently if I knew what was going to happen for sure, but 
there is this kind of theory--I heard the term from the 
Chairman of like wanton disregard from the companies, and that 
is not, like, my perspective from somebody who worked for it. 
There is more Ph.D.s working on the link between violence and 
on-line content at some of these companies than in most of 
academia. There is a lot of people working on it, but it is 
actually not an easy problem.
    Mr. Walker. How do you suggest social media companies 
incorporate the issue of wrongful flagging into their AI 
policies?
    Mr. Stamos. So, as I said both in written and oral 
testimony, I think the transparency is key. The companies are 
operating as quasi-governments, right. They are making 
decisions on a global scale that would normally be reserved for 
governments, governments that, in our expectation, should be 
democratically accountable. I think the lack of transparency 
about what decisions they are making and how they make it is a 
critical problem that they have.
    Mr. Walker. With all that said, and I am going to get a 
quick answer because we have about a minute left, from all the 
panel members, is the consensus of the panel that AI in its 
current state is not a place to be the primary technology used 
to detect and block the extremist and other violent content? 
Dr. Buchanan.
    Mr. Buchanan. Yes. I think there is substantial limitations 
to the technology as it applies to the moderation problem.
    Mr. Walker. OK. Mr. Stamos, would you----
    Mr. Stamos. I think AI is a critical part of doing it at 
scale, but most of the hardened decisions have to be made by 
humans.
    Mr. Walker. OK. Mr. Sanchez, would you expound? Got about 
30 seconds left.
    Mr. Sanchez. It is best for the easy cases. It has a large 
role in rapidly dealing with easy cases.
    Mr. Walker. I just want to make sure that this is something 
that is going to be long-term and some of the implementations 
that need to take place. I do appreciate your testimonies.
    I am running out of time without another question, so with 
that, I will yield back to the Chairman.
    Mr. Rose. Thank you, Ranking Member Walker.
    On that, I will recognize myself for 5 minutes.
    I want to focus, Mr. Stamos, on your time at Facebook. 
Obviously, an enormous amount of content posted on Facebook 
every minute. Facebook, as well as Twitter, YouTube, all have 
agreed that they do not want terror content on their platforms.
    How does Facebook manage this? How did they do it during 
your time? What is your reading of how they do it now, your 
understanding of personnel allocations, resource allocations? 
What--what is not working right now at Facebook? What are they 
not doing well enough?
    Mr. Stamos. So that is a comprehensive question. So the 
experience of starting, you know, my--starting my tenure was 
right around, like I said, the growth of the Islamic State's 
use on-line. Islamic State was unique among in the history of 
Islamic terrorist groups in it being staffed by digital 
natives, that you had millennials who worked for the Islamic 
State living in Western countries who were very smart about the 
manipulation of social media.
    One of the failures at the company going into that is that 
our policies did not really capture that kind of organized use 
of the platform to cause terror and to recruit people for 
terrorist organizations.
    A lot--this is a problem that we had in a couple of cases. 
We had the same issue with the Russian interference in 2016, 
where going into the 2015-2016 time line, Facebook's policies 
were very focused on individual pieces of content, not looking 
at the big picture of organized campaigns that were trying to 
manipulate the company.
    So, coming out of that, we ended up doing a couple things. 
So we ended up hiring a bunch of experts in this. So I actually 
cited a paper from a friend of mine, Brian Fishman, who we 
hired from the West Point Counterterrorism Center. We hired a 
bunch of specialists in Islamic and, eventually, in like white 
nationalist terrorism to help build up policies to catch those 
folks.
    We built an investigations team to investigate the worst 
cases, and then built out content moderation policies to catch 
them as well as the AI that come with them.
    As far as what the current staffing is----
    Mr. Rose. But I just want to--I think we agree that the 
policies right now is not the issue. There is a commitment, 
theoretically. We agree on that.
    Mr. Stamos. Right.
    Mr. Rose. What my question to you is, is that it is really 
after the policy gets established. Because you all agree 
collectively that AI doesn't work well enough to just rely on 
it.
    So this is a numbers game. Once you have the policy in 
place, this is a numbers game. So after that point, you get the 
experts, you get the Ph.D.s, everyone understands what you are 
looking for. Did you feel during your time there that Facebook 
had enough people on staff that were dedicating enough 
resources to actually catch all of this stuff?
    Mr. Stamos. Well, you are never going to catch all of it.
    Mr. Rose. Catch enough of it.
    Mr. Stamos. Catch enough of it. I think they could always 
invest more, the truth is, and that--during my time there, 
there was----
    Mr. Rose. Did you at any time ask to invest more?
    Mr. Stamos. I did and we did.
    Mr. Rose. What did Facebook tell you when you asked to 
invest more in counterterrorist screening?
    Mr. Stamos. So I received the staffing request I got to 
recruit people to do this kind of work, so recruit people from 
the FBI, from NSA and such, to build up a team to investigate 
these issues.
    I think the more important staffing was not really on my 
team as much as in the content moderation teams, right? So, you 
know, my team was doing the kind of--the investigations of the 
worst-case scenarios, you know, the investigation after the 
Paris attack, the investigations of people who might be 
planning terrorist attacks.
    The content moderation is where they have really grown the 
size of the team, and that is where you need it. Because one of 
the issues in international terrorism is diversity of languages 
you have to deal with is actually incredibly broad.
    Mr. Rose. Absolutely.
    Mr. Stamos. So that is where there has been a bunch of 
growth. Whether it is properly sized or not, I am not really 
sure. I mean, I think they can always put more resources.
    My recommendations are more on some big-picture changes. I 
think one thing I would like to see the companies do is the 
difference with Christchurch versus the Islamic State is that 
we are now dealing with a different kind of problem where these 
white supremacist groups have on-line hosts who are happy to 
host them. That was not true for Islamic State. People did not 
want to be the official IT people for the Islamic State, but 
people are happy to be the official IT people for people like 
the Christchurch shooter. I think they would be more aggressive 
dealing with that problem.
    Mr. Rose. With my limited time, this is also a collective 
action problem. So what was your interaction with the GIFCT, 
and what do you think the future of the GIFCT should look like?
    Mr. Stamos. That is a great question, sir. GIFCT was set up 
during my time there. I was a big supporter of it, but I think 
on all of these issues on interference in elections, on 
terrorism, on a bunch of different safety issues, the time has 
come for the companies to put together a stand-alone staffed 
organization that has its own people studying these issues and 
can really serve to push the coordination problem.
    The one I really like is called the FS-ISAC, the financial 
services industry. All of those companies hate each other, 
right? The big iBanks in New York. They all hate each other, 
but they realize that all of their boats rise and fall on the 
same tide, which is the trustworthiness that people place in 
the banking system. So they have come together with a well-
staffed, well-resourced organization that helps force them to 
share information, and then operates as a bridge between them 
and the Government. I think it is time for the companies to 
build something like that, and GIFCT could become, basically, a 
working group, but a group like that could work on all of these 
issues in a much better way.
    Mr. Rose. Thank you.
    I will now recognize the good Congressman from Rhode 
Island, Congressman Langevin.
    I am sorry. I passed over you, buddy. Congressman Green, my 
friend.
    Mr. Green. Thank you, Mr. Chairman, and thank you for 
teeing all this up.
    I want to thank the witnesses for coming today. My 
colleague actually asked the question for Mr. Buchanan that I 
wanted to ask about capabilities, so I will move on to Mr. 
Stamos.
    Sir, you make many interesting recommendations in your 
written testimony that may help significantly improve 
companies' ability to detect extremism, specifically you say, 
create a robust perceptual fingerprinting algorithm and develop 
client-side machine learning for safety purposes.
    Can you elaborate on what is holding companies back from 
doing just those things? Have you discussed with the companies 
these suggestions in detail, and what is their feedback?
    Mr. Stamos. Thank you, Congressman. So to do a little bit 
of background, probably the most--the best story in all of 
social media of a problem that they have handled the best is 
child sexual abuse material, which is the term that we use for 
child pornography. The reason for that is a couple. No. 1, the 
law is clear, the definition of these things are clear, people 
are very motivated to work hard on it. Also, there has been 
enough motivation to create standards by which the companies 
can help each other. So the key technology here was one that 
was invented at Microsoft, something between 10 and 15 years 
ago, called PhotoDNA, that now all the big companies utilize.
    My recommendation is that I would like to see further 
improvements on that technology. There are significant 
technical issues with the PhotoDNA. Effectively, it has to be 
kept secret, because if it was ever publicly known, the child 
pornography people would be able to defeat it and be able to 
upload their images. So it is not robust is what we call it.
    So I would love to see the companies come up with a new set 
of algorithms for a variety of different purposes, including 
video, which PhotoDNA does very poorly, that they could then 
share with many, many companies.
    One of the issues here is that there is a lot of companies 
that host this kind of content and they are not getting help 
from the big guys. So I would like to see the big guys pay for 
the creation of that kind of stuff, and then that would let 
them share all of these hashes with each other. So, like, in 
the Christchurch shooter video, if one of those companies said 
this video is bad, just like with C-SAM, they would be able to 
ban it very, very quickly, and then create better algorithms 
that can deal with people intentionally manipulating it. That 
was a big problem with the Christchurch videos. People were 
trying to defeat the algorithm.
    Mr. Green. Making the comparison, though, between, let's 
say, child pornography and, let's say, Christchurch, though, I 
think is a little bit problematic. It is always bad when there 
is a little child in an image, right, like that. It is always 
bad. But if the Peshmerga is trying to show how ISIS has 
beheaded Christians, and so the algorithm is gore or whatever, 
that is different and more difficult to differentiate, because 
that may be showing something that is very horrible, but you 
want it out there so that people can be aware of the fact that 
ISIS is doing this.
    So that kind-of leads me to my question for Mr. Sanchez. 
You mentioned in your written testimony how many times content 
is taken down by good groups who are standing up and fighting 
evil such as those documenting Bashar al-Assad's war crimes. 
Are you hopeful that technology can actually do the 
differentiation that I alluded to in my example, and what is 
standing in the way of them getting good enough to make that 
differentiation?
    Mr. Sanchez [Off mic]. As our waitlisting progress, this 
particular channel, this particular group, we understand is 
engaged in an educational or a sort-of civil--civil rights or 
human rights mission, and so we will sort-of exempt some of 
their content from the algorithm. In the near term, that is 
what you can do.
    If you are talking about a situation where you may have 
random citizens uploading content that they capture on their 
phone because they were present at an atrocity, that may not be 
a person you have any reason to treat specially, and, indeed, 
there may be nothing about the content in itself that 
distinguishes it. The same video that someone posts to say, 
look at the atrocities these groups are committing and how 
important it is to continue fighting them and keep the world's 
attention, might be the same video posted by another group to 
say, look at our glorious triumph in killing infidels.
    Mr. Green. Right.
    Mr. Sanchez. You know, I don't think a computer or any 
other algorithm can tell you the difference between those two 
cases because it is the same video.
    Mr. Green. So, basically, you are saying there is no chance 
of fixing that with AI?
    Mr. Sanchez. I think it is--there are ways AI can do it, 
maybe by looking at context and seeing words, but human 
communication is complicated and bad actors adapt with 
countermeasures. They change the way they talk, they change 
their patterns. So even if it succeeds in the short term, it is 
always a temporary success.
    Mr. Green. Thank you.
    Mr. Chairman, I yield.
    Mr. Rose. Thank you, Ranger.
    I would like to next recognize Congressman Langevin from 
Rhode Island.
    Mr. Langevin. Thank you, Mr. Chairman. I want to thank our 
witnesses for being here today.
    Mr. Stamos, Mr. Buchanan, I certainly appreciate your sober 
assessment of the current state of machine learning technology. 
I know this is an evolving technology that we are still kind-of 
coming to grips with in understanding and realizing its 
potential and also its limitations.
    While I believe there is a lot of promise for machine 
learning going forward, I think many of the use cases that we 
see today are much more discrete with respect to terrorist 
messaging and misinformation, for example. So much of the 
attention you would say has been placed on dealing with the 
content of the speech itself, but do you believe that it makes 
more sense to focus on the actors themselves? What is the 
potential for machine learning to help companies better 
understand their users and move accounts that violate terms of 
service?
    For Mr. Stamos, for Mr. Buchanan, whoever wants to start.
    Mr. Stamos. Thank you, Congressman. You are right. 
Actually, the use of machine learning from a metadata 
perspective that looks at users is actually probably one of the 
most effective uses. So during--if you look at all kinds of 
abuse on-line, a huge percentage of all kinds of abuse, ranging 
from bullying and harassment to uploading of child 
exploitation, is powered by fake accounts, which you expect, 
right?
    People generally don't commit these crimes under accounts 
that they use for their real personas, and that is actually one 
of the most effective uses of machine learning at Facebook. 
Especially after the Russian issue in 2016, we built out a 
number of algorithms that were trained on fake accounts to look 
at do these accounts have the indication of being created 
specifically to violate policies. Do they look inauthentic?
    I think--so in my written testimony, I cited a Facebook 
report, and they report that around 2 billion of those fake 
accounts are now taken down every quarter, which is a huge 
increase than when I was there. So I do agree that that is one 
of the good uses of ML for this.
    Mr. Langevin. Mr. Buchanan, do you have something to add?
    Mr. Buchanan. Yes. I think I would agree with everything 
Mr. Stamos said. I think it is worth maybe spelling out 
slightly more as to why this is at least a partially effective 
tool, particularly in how it raises the cost for adversaries in 
their operations.
    So much of social media, so much of this discussion is 
about scale, and by being able to interfere with the account-
creation process and the posting process, requiring adversaries 
to go through more hoops, in effect, to post their content on-
line and keep it on-line, we raise the cost for the 
adversaries.
    In that respect, I think machine learning that is applied 
to accounts and to users certainly is an effective tool, both 
for propaganda operations and for extremist content more 
generally.
    Mr. Langevin. Mr. Stamos, you highlight two particular 
areas social media companies should focus on: Advertising and 
recommendation engines. So how much should machine learning 
play in the advertising business decisions, and how--and how is 
machine learning being used today in recommendation engines? 
What changes could you--and Dr. Buchanan, I would welcome, sir, 
your input as well--to suggest such algorithms to help stem 
radicalization?
    Mr. Stamos. Thank you, Congressman. You make a great point. 
The use of machine learning in advertising is a critical thing, 
I think, we have to think about. The reason on-line ads are at 
all effective and the reason these companies make any money is 
because of machine learning, because machine learning allows 
for people who advertise on their platforms to reach people who 
are more likely to click the ads.
    It does create a number of problems. It creates an inherent 
biased problem that is not so relevant to our topic, but that 
is some of the issues around housing ads and employment ads and 
stuff come out of the machine learning algorithms kind-of 
reflecting human biases without them knowing that they are 
doing so.
    The other issue that I have with the machine learning in 
advertising is its use in political campaigns. So we actually 
released a report a couple weeks ago that I cited in my 
testimony from Stanford around election security. One thing we 
would like to see is restrictions on the use of the most 
powerful machine learning targeting techniques in political 
campaigns, specifically around securing our elections from both 
domestic and foreign interference. I think that is less 
relevant in the terrorism context as we don't have a lot of 
examples of terrorists using advertising, right, giving actual 
credit card numbers, but I think in other forms of abuse that 
is a big deal.
    Mr. Langevin. Thank you.
    Mr. Stamos, if I could--well, my time is about to expire. 
Maybe you can talk about this in an email----
    Mr. Rose. We will do a second round.
    Mr. Langevin. OK. I will stop there, and I yield back.
    Mr. Rose. Great. I would love to now recognize 
Congresswoman Jackson Lee from Texas.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman.
    Let me just ask the general question, since this committee 
has tried to secure information regarding how much resources 
are utilized for finding bad actors, bad information on the 
social media and with respect to the tech family, if you will. 
So let me just ask each witness.
    Dr. Buchanan, do you think the industry overall needs to 
invest more resources in interdicting bad information?
    Mr. Buchanan. Yes. On balance, I think there probably is 
space for further investment. I think there is also space for 
significant policy changes regarding transparency. I am not 
sure which would give bigger impact in the long run, but both 
probably are useful.
    Ms. Jackson Lee. Dr. Stamos.
    Thank you.
    Mr. Stamos. Yes, ma'am. I do think there needs to be 
investment, both by the big companies, and I think we need to 
figure out societally how we get support for the smaller 
companies as well because that is where I think there is 
actually kind-of a real blind spot that we have on some of 
these issues.
    Ms. Jackson Lee. Dr. Sanchez--Mr. Sanchez.
    Mr. Sanchez. I lack the same internal perspective as Alex 
to judge sort of the adequacy of their current internal 
investment, but certainly, you know, there is room for 
improvement.
    Ms. Jackson Lee. As relates to AI, there are concerns 
about--well, let me just ask this question: How important is 
data when it comes to artificial intelligence, and is it more 
important than algorithms or computing power? What are the 
strengths of each of these machine learning components?
    Dr. Buchanan.
    Mr. Buchanan. That is a very broad question. I think as 
applied to counterterrorism, this is an instance in which the 
systems in play are classifiers, and those rely quite a bit on 
previous examples, so the data is incredibly important. I don't 
think for a company like Facebook or Google this is a problem 
of computing power or machine learning research talent.
    Ms. Jackson Lee. Dr. Stamos. I have a follow-up question 
for you.
    Mr. Stamos. You are absolutely right. The availability of 
data is actually the critical thing for most uses of machine 
learning. Anybody can rent a huge amount of computing power 
from the Microsofts and the Googles and the Amazons of the 
world, but getting training sets is extremely difficult.
    Ms. Jackson Lee. I would like to say that we are not 
picking on one company verse another, the fact that you are 
formerly with Facebook, but it has come to our attention that, 
although Facebook indicates that they intercept about 83 
percent of this terrorist data, a whistleblower indicated that 
they really only claim less than 30 percent of the profiles of 
friends of terrorist groups had been removed from the platform 
over a 5-month period.
    So my question would be, are we getting numbers that are 
really not accurate? Is there a way to ensure that the likes of 
Twitter, Facebook, and others, Google owns YouTube, are really 
getting at the core of these terrorist information bases, if 
you will?
    Mr. Stamos. In my experience, the numbers the companies 
share are accurate but often incomplete, right? So when you 
look at the numbers in the transparency report, it doesn't 
include certain numbers such as, you know, multiple people have 
pointed out, some of these numbers on 99 percent caught. The 
denominator there is of the content that they ended up taking 
action on, it is not on the prevalent--the number we call 
prevalence, which is all the stuff you missed, right?
    What I would like to see from a transparency perspective is 
I would like to see all the companies to set up either together 
or separately archives of all the content they are doing 
moderation on and the ability for academics to access that 
under NDA so that we can look over their shoulders and provide 
feedback to you of what we think is going on.
    Ms. Jackson Lee. Let me ask this question for all 
witnesses: Can bad data lead to bias, and how do you improve 
the quality of data that is being used for AI?
    Mr. Buchanan. Yes, Congresswoman. I think it is very clear 
that, generally speaking, bad data or mislabeled data, biased 
data, can lead to bad outcomes for AI systems. It is very 
important, regardless of what kind of machine learning one is 
doing, to have a data set that is large and representative of 
the outcomes you want to achieve.
    Ms. Jackson Lee. Mr. Stamos.
    Mr. Stamos. I agree that bad data can lead to bias. Bias 
can also come out of good data where the AI pulls out human 
biases that we were not conscious of. So I think the other 
thing we need is we need--and this is an area of a lot of 
academic study, we need measurements of fairness and bias that 
apply even if the training sets are perfect, and I think that 
is kind-of the next generation of the issue here.
    Ms. Jackson Lee. Mr. Sanchez.
    Mr. Sanchez. I think I would agree with that and say that, 
you know, I think a lot of--when people talk about algorithmic 
bias, often it is less--often it is a question of training 
sets, you know, white engineers training a set on a lot of 
white folks and then, you know, the recognition doesn't work 
for people who look different.
    But a lot of the time, you know, algorithms are what they 
are learning from is human behavior and human preferences, and 
so to the extent we have cognitive bias, the algorithms we 
teach inherit those biases from us.
    Ms. Jackson Lee. Thank you.
    Thank you, Mr. Chairman. I yield back.
    Mr. Rose. Thank you.
    I would like to now represent for a second round of 
questions, Ranking Member Walker.
    Mr. Walker. Thank you, Mr. Chairman.
    I don't think I will use the full 5 minutes, but I wanted 
to just to dial down a little bit of something. In fact, just 
about 30 seconds ago, Mr. Stamos, you talked about measurements 
of fairness. In your time at Facebook, did you feel like there 
were any biases toward those held conservative or religious 
viewpoints? Were you able to identify any kind of biases, bad 
biases or whatever the terminology might be?
    Mr. Stamos. No.
    Mr. Walker. OK. I have got about 4 pages of things that 
would--even some that Facebook later on issued an apology 
with--we have Brian Fisher, the president of Human Coalition 
has been back and forth.
    Are you familiar with that name at all?
    Mr. Stamos. No, I am not, sir.
    Mr. Walker. Human Coalition?
    How about the group Zion's Joy, familiar with that group?
    Mr. Stamos. I am sorry.
    Mr. Walker. Well, let me refresh your memory just a little 
bit there. Zion's Joy is a gospel music group, a multiracial 
gospel group, who engaged, during your time with Facebook, and 
the New York Times picked up on it. Eventually, Facebook 
offered an apology to that.
    Do you have any recall of that situation that went back and 
forth?
    Mr. Stamos. So to be clear, I worked on adversary use of 
the platform to cause harm. I was not part of kind-of political 
content moderation. The overall issue here is--you know, 
according to this report, Facebook made about 4 billion content 
moderation decisions in the quarter.
    If you had 4 billion stars you are looking at, you can draw 
any line or any constellation you want. The truth is, is 
basically, every group believes that Facebook is biased against 
them. We would hear this from every racial group, every 
political group. Everybody that believes they are being 
oppressed. The truth is the companies make lots of mistakes.
    Mr. Walker. I don't believe I have heard a lot of that from 
groups that would promote progressive or left causes that would 
suggest that you have Facebook biases against them. But the 
reason I ask you----
    Mr. Stamos. I will share my Twitter DM with you sometime.
    Mr. Walker. Well, we all--I mean, yes, we can exchange 
Twitter any time.
    The point that I am making is, when the algorithms--those 
are human uploaded. Those are human--basically, broken down to 
a way that some kind of human input--there used to be a--when I 
was in middle school, we talked about COBOL and FORTRAN, 
garbage in, garbage out, right?
    Mr. Stamos. Yes.
    Mr. Walker. So when you talk about these bad biases, do you 
think it is an issue that some of these algorithms are loaded 
with a bias as they are put into the system to monitor such 
content?
    Mr. Stamos. I think the bias of individual moderators is 
absolutely a problem. That is true globally. At Facebook, we 
had all kinds of issues with individual moderators being from a 
certain political group, a certain ethnic group, and having 
biases against others. I am sure that has existed in individual 
moderators in the United States. But the companies are pretty 
well aware of this. There is an internal QA process to try to 
work on it.
    I must say, like, I have never been in a meeting where 
people have talked about let's shut down conservative thought. 
Like, that is not how----
    Mr. Walker. Right. I don't think anyone would be that 
blatant, even if that was their intent.
    So you talked a lot about transparency. You don't have an 
issue of people looking into this to see if there are bad 
biases.
    Mr. Stamos. Right.
    Mr. Walker. Correct?
    Mr. Stamos. That is one of the problems the companies have 
created for themselves, is they can't disprove that there is no 
bias, because there is no record of everything they have 
moderated. So that is why I think if there was a massive 
database of here are all the things that they have made a 
decision on in the last 90 days, then you could have outside 
academics look and see whether the bias exists.
    Mr. Walker. Mr. Sanchez, do you have any evidence, or even 
if it is a hypothesis from what you have seen, any kind of bias 
slanted in big social media to the left, to the right? Have you 
guys been able to identify any of that?
    Mr. Sanchez. I will say, in my experience, it does seem 
like everyone--everyone is convinced that they are on the wrong 
end of decisions. I think it is because people pay attention 
to, you know, cases similar to them. If you are a conservative, 
you are likely to hear about conservatives who are angry about 
moderation decisions that are affecting them. If you are 
progressive, you are likely to hear about, you know, the person 
who was arguing with a Nazi and they got banned and the Nazi 
didn't. So that creates an impression that the universe of 
questionable moderation decisions affects your group. I don't 
know how well that reflects reality.
    Mr. Walker. Very informative. Thanks for letting me drill 
down a little bit longer.
    I yield back.
    Mr. Rose. Thank you, Ranking Member.
    I will now yield to myself for 5 minutes.
    Mr. Stamos, go back to you. Can we just focus on, for a 
second, the nitty gritty of examples where AI was deficient? We 
have heard things about watermarks. We have heard things about 
the absence of spacing. Without, obviously, giving away tips to 
people, what are some egregious examples, because I know they 
exist, of the failures of AI as it pertain to terrorist 
content?
    Mr. Stamos. So to go back to the Christchurch video. I 
tried, in my written statement, to break into three different 
categories where I think we could do better. One of the--the 
obvious ones where we can have the most improvement is on the 
last step of the propaganda campaign, which was the shooter 
engaged an on-line community off of the big sites on a small 
site called 8chan to then push his propaganda for him. They 
were then exchanging among themselves tips on, how do you 
defeat the filters of the companies? One of the reasons they 
had a good understanding of this is there is a big subculture 
of people who upload copyrighted videos to places like YouTube. 
So they have been working for years on how to defeat these 
algorithms. The algorithms, while perhaps slightly different 
between copyright and counterterrorism, have the same kind of 
fundamental problem.
    Mr. Rose. So it does seem that we are always going to be 
chasing this.
    Mr. Stamos. Yes.
    Mr. Rose. AI will get better. People will get better.
    Mr. Stamos. Yes.
    Mr. Rose. Should there be a mandated ratio of screeners to 
users?
    Mr. Stamos. You know, that is a tough question. I am not 
sure how you would estimate that.
    Mr. Rose. That is why you get paid the big bucks. It is 
clear you all have the consensus, AI, as far as the eye can see 
right now, will never be good enough. Facebook, 2 billion, 3 
billion, 4 billion users. We need to figure out a way to create 
some type of standard for what right looks like. It appears to 
me that the best option right now is, say, look, you got 2 
billion users. We need--we want a 20-to-1 ratio.
    What they often come back to us with, Twitter, YouTube, 
they all say the same thing is, well, you are oversimplifying 
this. You know, we could have better technology. Our response 
to that, based off what you are saying, is, no, you cannot. 
That this is a personnel problem, this is a resource problem. 
You need to have screeners. They cannot be underpaid, 
overworked contractors either.
    Do you think that is an unfair statement?
    Mr. Stamos. No. It is crazy for me to be saying this, but I 
think the people who have one of the more thoughtful approaches 
of this is actually the French Government right now, in that 
they are proposing a model of a self-regulatory agency where 
Western governments, democracies are able to participate in. 
That holds the companies accountable to the rules that they set 
out for themselves.
    So I think a first step is to make them standardized on 
these are the standard numbers that we are going to share in 
all these different areas, and then push them to be accountable 
to their current standards. I think you can do that without 
trying to mandate specific numbers, which I think the 
technology will get passed legislation pretty quickly there.
    I mean, like, one of the founding laws that we have to work 
off of on all these issues is the Electronic Communications 
Privacy Act which was signed by Ronald Reagan, right? These 
laws last forever and are very difficult to apply sometimes by 
tech companies. So the French approach is actually the one that 
I think is the best right now to try to push the companies to 
do better.
    Mr. Rose. OK. Just to close out, then. We have also been 
struggling and exploring ways that we can establish this 
standard. Because I think the social media companies right now 
rightfully fear that we yell and scream and then we are not 
telling them what we want of them.
    So do you think that the best route is for us to push and 
potentially even mandate that they develop an industry 
standard, that we can then establish an independent body to 
hold them to? Should we push a standard to them?
    I give this to the three of you. What recommendations do 
you have for how we can establish that standard and if we 
should?
    Mr. Stamos. From my perspective, I think--I take Mr. 
Sanchez' point well, which is I think it is very difficult for 
the U.S. Congress to establish standards, because almost all 
the speech we are talking about is First Amendment protected in 
other contexts. Holding them to the standards they create I 
think is a totally appropriate thing for Congress. The other 
thing I would push for is the transparency, so at least we know 
what is going on and we know what kind of decisions----
    Mr. Rose. Keep in mind, we are talking just about terror 
content. We are not moving to hate--and it is very purposeful 
here.
    Mr. Stamos. Yes.
    Mr. Rose. We are not moving to hate speech. We are not 
moving into things that rightfully--that have significant legal 
and Constitutional issues around that.
    We are talking here about someone getting up and saying, I 
urge you all to join Hamas. I urge you all to join Hezbollah. I 
urge you all to join al-Qaeda, and any other organization 
listed by the State Department as an FTO.
    You don't think that we can establish a standard around 
that?
    Mr. Stamos. I am not a lawyer. I am an engineer. My 
understanding, especially when we are talking about, like, in 
the Christchurch and the white supremacist content issue, is 
that most of this content is protected by the First Amendment. 
But that is my understanding.
    Mr. Rose. Anyone else.
    Mr. Sanchez. I mean, I think there may be a narrow category 
of sort-of direct support for violent action that would be, you 
know, subject to legislation without raising First Amendment 
issues. But, in general, advocating violence saying I approve 
of al-Qaeda, I think what they do is wholly injustice. Vile, 
but it is protected speech. So I think the creation of 
standard--or requiring companies to create a standard, unless 
you are willing to accept literally any standard, including we 
do whatever we want, creates Constitutional problems.
    Holding them to standards they publicly articulate I think 
can be done by the FTC. If you are not upholding standards you 
say you adhere to, you could pursue that as an unfair and 
deceptive trade practice.
    Mr. Buchanan. I think that is right. Again, I will skip the 
legal side of this. But it does seem to me that it is very 
difficult, especially for those of us who are academics, to get 
a good sense of how the companies are doing on this. As some of 
the earlier questions mentioned, there is a very broad range of 
numbers of what percentage of content is being managed 
appropriately. Absent raw data from the companies, it is 
exceptionally hard to hold them accountable regardless of which 
standard is applied.
    Mr. Rose. Right. I would like to commend the committee 
staff for the first panel in the history of Congress with no 
lawyers on it. That is great.
    Congressman Langevin from Rhode Island.
    Mr. Langevin. Thank you, Mr. Chairman.
    I just want to go back to a couple of my earlier questions. 
So, Mr. Stamos, we talked about advertising. We really didn't 
get to the recommendation engines part of the question.
    So how is, again, machine learning being used today in our 
recommendation earnings? What changes do you suggest in making 
such algorithms to help stem radicalization? Again, Mr. 
Buchanan, if you want to comment as well on that.
    Mr. Stamos. Thank you, Congressman. As I tried to put in my 
written testimony, I do believe that advertising and 
recommendation engines are the first things that we need to 
focus on here. The thing about recommendations, No. 1, they 
work in very different ways for different platforms.
    So in some platforms, like a Twitter or a Facebook, the 
biggest determinant of the content you see is who you are 
connected with in the social graph. On sites like YouTube, it 
is the recommendation engine that is putting it in front of 
you.
    Effectively, most recommendation engines are machine 
learning, and they are based upon the idea of statistically 
trying to understand what it is that you want to consume on 
their site based upon your previous actions. So it tries to 
show you stuff that the machine guesses that you will like.
    The problem there is the machine doesn't understand whether 
it is actually good for you or not, right? It is using a metric 
of whether you are satisfied or you are happy with the content 
that does not figure out whether or not the content is good or 
whether it is good in general.
    I think one of the key things that we need, our 
recommendation engines, is you need what are called counter 
metrics. You need metrics that are a little more complicated 
and nuanced to measure whether or not you are putting 
information in front of people that is radicalizing. Is it 
pushing the edge of the content policies? Does it create people 
to fight with one another? I think there are ways to do that in 
a content-neutral way that the companies need to consider.
    Mr. Langevin. OK. Thanks.
    Mr. Buchanan.
    Mr. Buchanan. I would only add that this is one place where 
I think you can, at least in the abstract, see some tension 
between what might be good more generally for a society and the 
business models of particular companies. The recommendation 
engines exist to keep people on the platform, to keep people 
engaged with the platform. To some degree, it probably is good 
business to have something like this.
    I think, as Mr. Stamos said, we probably want some more 
nuance on those recommendations to balance the business desires 
of the companies with what appear to be, based on the limited 
data that is available, some significantly negative broader 
social effects.
    At a minimum, I think we want more transparency onto the 
recommendation systems such that we can study how and if they 
are driving people toward more extreme content in any given 
political direction or direction related to extremism or 
terrorism.
    Mr. Langevin. How do we get to that? Is that regulation? Is 
it legislation?
    Mr. Buchanan. I think this is a fair question to ask the 
companies tomorrow. It seems to me that there is the 
opportunity for companies to make this data available to 
researchers to study, not just on what content they take down, 
but also on, to some degree, the functioning of their 
recommendation systems. That would shine some light.
    I would note, even short of that, we have see some good 
reporting and some good academic research on the subject which 
I think raises concerns. But given the limited data available, 
it is not yet conclusive.
    Mr. Langevin. OK. Mr. Stamos, Mr. Buchanan, I just want to 
also follow up on my earlier line of questioning regarding 
focus on the users and scale. So there are billions of 
moderation decisions made each year regarding hundreds of 
billions of posts. So in contrast, there are only around 4 
billion internet users. So scale is certainly a big factor.
    Beyond the focus on removing fake accounts, what else can 
social media companies do to stop repeat offenders? In terms of 
improving the ecosystem, what steps should major platforms take 
to stop or reduce linking to less responsible platforms?
    Mr. Stamos. So the recidivism issue is a huge deal of 
people who have been kicked off the platforms and come back. I 
think the continued application of deeper and deeper machine 
learning algorithms to look for those people is going to be 
critical.
    You brought up something that I have been big on, is I 
think something the companies could do right now is they could 
recognize that the white supremacist terrorist problem is 
different structurally than the Islamic terrorism problem in 
that we have a set of 4 or 5 websites that are intentionally 
being the hosts for this content. The companies could privately 
decide to ban links to those hosts.
    Those hosts will still exist. People can go to them. But we 
shouldn't be allowing the 8chans, the Gabs, the white 
supremacist sites of the world to utilize the amplification 
effects on a Facebook or YouTube to then bring people over. I 
think that is a decision that those companies could make either 
collectively or on an individual basis to ban those sites from 
linking out.
    Mr. Buchanan. If I might, I think there are two points here 
that are worthy of mention. The first is I think this is a very 
fair question to ask social media companies, which is to say, 
as your platform scales to billions of users, if you agree that 
machine learning techniques are insufficient to moderation, 
what is your plan to manage this, given the negative external 
social costs? That is the broader point.
    The more narrow point, I think, is as Mr. Stamos said, one 
function of this plan that I think is comparatively 
underexplored are ways to moderate and reduce the amplification 
provided by big tech companies. Whether that is banning links, 
whether that is determining how much something shows up in the 
recommendation system or in the news feed, there seems to be 
substantial room to improve there, some options available that 
I think are worth exploring.
    Mr. Langevin. OK.
    Thank you, Mr. Chairman. I will yield back.
    Mr. Rose. Thank you, sir.
    To close it out, I would like to recognize Ms. Jackson Lee 
from Texas.
    Ms. Jackson Lee. Chairman, thank you very much.
    The focus on elections and both the impact of the major 
tech companies certainly came to a head in 2016, although we 
realize that it has certainly been part of our world for a 
longer period of time than that. Questions of election 
security, I think, are crucial for every American.
    I would hope as we move into the 2020 season of elections, 
that we can be clearly focused in on the concept of election 
security. The tech companies are very much intimately involved 
in that. Frankly, the terminology of election security should 
really be the preservation of the democracy and the values of 
this Nation; that whoever votes and whoever they vote for are 
voting on informed information that is truthful information. I 
think that is the very premise, whether we were having poster 
boards, calling people on the telephone of ancient days or now 
today.
    So I want to ask about a growing concern, particularly 
going into the 2020 elections, is the emergence of deep fakes. 
Those that were partially used or maybe dominantly used in 
2016, are artificially generated videos that appear to be real. 
Deep fakes may be disastrous for the 2020 election. I, frankly, 
believe that we should draw together to find the best solution 
for that, because truth does make for a better democracy.
    So I am asking each of you if you can take note of these 
three elements that I would like to refer you to. That is, what 
is the current state of deep fake technology? Should we be 
worried? Why or why not? How will AI technologies contribute to 
misinformation going into the next election?
    Mr. Stamos, let me give you one question first, and the 
three of you ask the other questions.
    I understand that you work to make security a more 
representative and diverse field, which we appreciate. Would 
you mind explaining why this would be positive for the 
intersection of work dealing with AI and counterterrorism?
    Mr. Stamos. Absolutely, Congresswoman.
    Ms. Jackson Lee. Then the other gentlemen will, along with 
you, Mr. Stamos, start with Mr. Buchanan, will answer that 
other deep fake question.
    Thank you.
    Mr. Stamos. Yes, Congresswoman. I completely agree. I think 
security and safely overall is about the adversarial use of 
technology to cause harm. The harms different people face from 
the internet are very dependent on their background, where they 
are from, where they have grown up, the people who are around 
them. Unfortunately, the teams that work on this mostly look 
like me. They are mostly white suburban from--computer science-
educated. The lack of diversity in security and safety teams is 
a huge issue with us not predicting the kinds of things that 
are actually going to affect people in the field. So that is 
something that I worked on in Facebook and we are working on a 
lot at Stanford.
    As to the deep fakes question, so the current state of deep 
fakes--I think everybody has seen what the deep fakes look 
like. We are currently at a point where detecting deep fakes 
afterwards when you are specifically looking is still doable. 
But this is an arm's race. The way deep fakes are generated is 
a thing called the generative adversarial network, which is 
actually you basically get two AI systems to fight one another 
to try to trick one another. So kind-of by definition this 
technology is moving in a direction where it is becoming harder 
and harder to technically detect whether something is a deep 
fake or not.
    Should we be worried? My personal belief is that the use of 
deep fakes to harass and abuse individual people is actually a 
much larger issue right now than in the political world, 
because when a deep fake or a cheap fake like the Pelosi video 
comes out, it is very easy to have counter programming saying, 
look, this is fake. We can prove it is fake, and you can do so.
    The use of deep fakes to create fake nonconsensual intimate 
imagery, which is the term for revenge porn that we use, is 
actually really horrible. It has real bad impact, mostly on 
women, young women who are targeted with it. There is nobody 
helping them out with that. Actually, if I was still going to--
if I was still at the companies, I would put--while there is 
more political view of, like, politicians being hurt by deep 
fakes, honestly, you folks can kind-of take care of yourselves, 
and the media is taking care of that. I would put more focus on 
individuals who are being hurt through the NCII problem.
    How will AI lead to election stuff? I am less worried about 
deep fakes. I am more worried about AI getting better at 
creating personas that seem human. If you look at the Russian 
internet research agency work that we did, we could tell that 
most of that content was created by non-English speaking 
people. If we get to the point of where computers can do that, 
then it means our adversaries are much less constrained by 
their ability to put a bunch of people into a building in St. 
Petersburg. Then that makes it possible for organizations that 
are much smaller than the Russian Federation to do that kind of 
work.
    Ms. Jackson Lee. Mr. Buchanan.
    Thank you.
    Mr. Buchanan. I think we agree on a lot of points here. 
First of all, in terms of the deep fake technology, to a human, 
it is virtually indistinguishable at this point. Machines can 
capture some of the nuance and do some detection. But as Mr. 
Stamos said, the technology here is, in effect, the result of 
an arm's race between a generator that generates the fake and 
the evaluator that determines whether or not it is real.
    In terms of the near-term impact of deep fakes, I would 
agree with Mr. Stamos that there is tremendous already existing 
impact to individuals, particularly women, that doesn't get 
enough attention. More generally, its effect on election 
security. I think that we should look at it under the broader 
framework of misinformation and propaganda and foreign 
interference rather than just as a technical specimen.
    If we would remove deep fake technology from the playing 
field, I would still be exceptionally concerned about the 
possibility of foreign interference in the 2020 election. This 
is one arrow in their quiver, but my suspicion is that they 
have many other arrows in their quiver. We need to think more 
generally and more broadly about how one combats misinformation 
campaigns.
    One thing that I think might be tangible in the near term 
for 2020 is better labeling of videos on a platform like 
Facebook when there is significant evidence that it is fake or 
doctored. We have seen some steps in that direction, but I 
think we could do a lot more.
    Ms. Jackson Lee. Mr. Sanchez.
    Mr. Sanchez. So I think a lot of the same difficulties with 
applying antiterrorism cross apply here. There are difficulties 
of context. You will find cases where something that is 
initially a parity or something that is created for humor is 
then presented as authentic. So do you categorically remove it 
or take some other approach? There is a question of whether 
leaving something up with countermessaging is more effective or 
simply blocking and assuming that the lie travels faster than 
the truth.
    I don't know if it is a categorically different problem 
from disinformation more generally, but I imagine the 
technology is getting to the point where we will very soon find 
out.
    Ms. Jackson Lee. Mr. Chairman, you have been enormously 
courteous. I thank you very much. Our work is cut out for us, 
and I look forward to working on these many issues.
    Mr. Rose. Absolutely. I think that there is--Ranking 
Member, correct me if I am wrong, there is an opportunity for 
some bipartisan work----
    Mr. Walker. 100 percent.
    Mr. Rose [continuing]. Around this issue, because this does 
represent a real National security threat. This problem is not 
going away.
    So with that, I do thank the witnesses for their valuable 
testimony.
    Ms. Jackson Lee, thank you for your kinds words as well, 
and Members for their questions.
    The Members of the committee may have additional questions 
for the witnesses and we ask that you respond expeditiously in 
writing to those questions.
    Pursuant to committee rule VII(D), any hearing record will 
be open for 10 days.
    Without objection, the subcommittee stands adjourned.
    [Whereupon, at 11:28 a.m., the subcommittee was adjourned.]

                                 [all]
</pre></body></html>
